<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2008</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]


 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2008 

                              ----------                              


                        THURSDAY, MARCH 15, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:04 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairman) 
presiding.
    Present: Senators Mikulski, Shelby, Stevens, and Alexander.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

STATEMENT OF HON. MICHAEL D. GRIFFIN, Ph.D., 
            ADMINISTRATOR

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Good afternoon, everybody, and welcome to 
the subcommittee hearing of Commerce, State, Justice. The topic 
today will be the appropriations for the National Aeronautics 
and Space Administration (NASA). As we have said earlier, the 
subcommittee was focusing on innovation, security, and 
accountability. Once again, we feel that NASA is the premier 
innovation agency within the United States Government.
    We know that more inventions, technology, and patents have 
come out of NASA than I think is ever fully grasped or fully 
appreciated by the American people, and certainly at times by 
people who wear green eyeshades.
    Today we are going to hear from the NASA Administrator, Dr. 
Mike Griffin, about the agency budget and priorities. Since our 
hearing last year, a NASA civil servant, Dr. John Mather, a 
civil servant at Goddard, won the Nobel Prize, the New Horizons 
Mission has given us new spectacular pictures of Jupiter on its 
way to Pluto. Cassini continues to send its images from Saturn, 
and good old Hubble keeps plugging away, continuing 
extraordinary contributions to science even though it is 
running a little low these days. We have successfully and 
safely returned the Space Shuttle to flight and laid the 
foundation to return to the Moon and eventually to go to Mars.
    For 2008, the President's budget funds NASA at $17.3 
billion, a 6.8-percent increase over the continuing resolution 
level. But when we look at the President's budget over the 2007 
request, it is a 3-percent increase over last year. To put 
NASA's budget in perspective, a $17.3 billion budget represents 
seven-tenths of 1 percent of the entire Federal budget.
    As we looked at science funding we see inside the budget 
request, $5.5 billion, a $300 million increase over the 
continuing resolution, or a $50 million increase when compared 
to the 2007 budget, the budget for science includes funding for 
Hubble servicing, the continuing development of the Webb 
telescope, and other missions. We are very, very pleased that 
these two will be in 2008.
    I do see a significant problem with future science budgets 
because from 2008 to 2011 it only goes up by 1 percent, and we 
will be talking about that with the Administrator.
    For Earth science, the budget shows a cut in funding 
starting next year, and by 2012 the budget for Earth science 
will be $200 million less than in 2008.
    Now, the exciting news is the National Academy of Sciences 
recently released its report on the future of Earth science, 
calling for new Earth science missions by NASA over the next 
decade, 14 of them, and also others to be done by the National 
Oceanic and Atmospheric Administration (NOAA) and one in 
conjunction. Though this year's NASA budget does not 
accommodate any of these new missions, we would like to discuss 
these with the Administrator, get his reaction, and try to find 
a way forward.
    In 1988 the aeronautics budget at NASA was $1.5 billion. 
Today it is $554 million. Every commercial aircraft on-line 
today uses technology developed by NASA and we need to talk 
about our aeronautics program because, after all, when we look 
at its name, it is the national aeronautics, as well as the 
national space program.
    The Space Shuttle budget is $4 billion, the same as 2007 
funding. The administration's budget calls for 14 additional 
flights to space, one to fix the Hubble. We just wonder how the 
Shuttle is doing. We know you have been hit by, was it, ice, 
hail? But our Space Shuttle returned to flight and the safety 
of our astronauts remains our number one priority. So we will 
be asking, how long can we keep the Shuttle going. And of 
course, like the Administrator, we do not want to be in the 
dark on the landing pad with a Shuttle return and not a way 
forward.
    When we talk about exploration, it is a $500 million 
increase over the continuing resolution funding and, quite 
frankly, we are disturbed about the continuing resolution 
funding. If Shelby-Mikulski had passed from the way we did the 
bill, we would have been in a better spot. But you know, we are 
where we are. We know that NASA estimates that it is going to 
cost $16 billion to build Ares and Orion by 2012. We are 
concerned that there will be a 4-year delay between the 
retirement of the Space Shuttle and the launch of Orion and 
Ares. And look at it. The delay is not caused by Congress. As I 
understand, the President's plan also reflects this. But we do 
not want to delay any more than we can.
    The Space Station will receive $2.2 billion, an increase of 
over $300 million, and we know we need to also have a way of 
resupplying it. So as we look ahead, there is no real growth in 
NASA's budget and there is no margin for error or overruns, and 
there is a lot of pressure on the NASA budget and on the 
Administrator on how to coordinate all the pieces that often 
need to move forward in what we hope is a balanced space 
program.
    Senator Hutchison and I will work to increase the top line 
by $1 billion and to repay NASA for the cost of Columbia. We 
also want to salute both Hutchison and Nelson, who are putting 
NASA in the President's authorizing legislation, putting NASA 
in the President's competitiveness agenda, and I will say more 
about that in my questions and answers.
    But no matter how we look at it, we just think that we have 
too many good things for too little money and we are concerned 
about that.
    We intend to, as always, pledge our bipartisan support to 
work with Senator Shelby, with the space Senators, to help 
balance the space program. But I remember over a decade ago 
President Bush's dad and then Vice President Quayle when they 
were contemplating the Space Station and some other 
breakthroughs on a very important Apollo anniversary invited us 
to the White House for a space summit, to kind of get a 
navigational chart on where we wanted to go in space and then 
what would be the revenue stream that we would talk about over 
multiple years.
    I think it is time for another space summit so that we can 
talk over both the President's agenda, the need to continue our 
effort in space science and aeronautics and to make sure that 
our country is number one in innovation, always ahead in 
competition on new ideas and new technology, knowing that we 
have got to get to the Moon, know that China is looming out 
there, and at the same time continue the bold, bodacious space 
exploration that is characteristic of our program.
    So having said that, it is just a direction to suggest and 
discuss, and as always I turn with real warmth and collegiality 
to my ranking member, Senator Shelby.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you, Madam Chair.
    Dr. Griffin, thank you for joining us here today. This is 
an important hearing because it gives us on the subcommittee an 
opportunity to discuss the significant role of the National 
Aeronautics and Space Administration and its budget proposal. 
NASA's proposed budget for 2008 is $17.3 billion. This is a $1 
billion increase to NASA's base programs or 6.5 percent over 
2007 joint resolution funding level.
    This is by some yardsticks a sizable sum, considering the 
funding constraints that the Federal Government faces in the 
coming fiscal year. But it is not too much money, Dr. Griffin, 
for what we want to do. The requested increase can be 
attributed to $522 million for funding exploration systems 
which will enable NASA to return to the Moon, an additional 
$652 million for the exploration capabilities account, which 
will allow for further construction of the International Space 
Station and other space operations.
    While these are significant increases, the proposed budget 
also contains a reduction of $336 million to aeronautics. Dr. 
Griffin, I think it is important to note that, while this 
budget reflects the President's implementation of the 
exploration vision, it is also grounded in NASA's 2007 request 
rather than the actual funding level provided in the 2007 
funding resolution. This poses many difficulties for this 
subcommittee in developing its proposal for NASA funding in 
2008.
    There are many complex elements required to achieve the 
goal of returning to the Moon. No one knows this better than 
you, Dr. Griffin. First there are the preparatory missions, 
such as the Lunar Reconnaissance Orbiter and Lunar Crater 
Observation and Sensing Satellite, which will launch, I 
understand, in October 2008. The follow-on mission, which is 
expected to launch around 2010 or 2011, has been selected since 
December 2005. Yet the 2008 budget continues to be vague 
regarding a time line for beginning the development work.
    Delaying such preparation missions will only further delay 
man's return to the Moon. I understand that the preparatory 
lunar missions are moving forward and that the crew launch and 
crew exploration vehicles are well into their design and 
development work. Over the past year NASA has refined the Ares 
vehicle to be a five-segment solid rocket booster and selected 
the J-2X engine for its upper stage. This selection will make 
it possible for the Orion capsule to reach the Space Station 
and also be ready for a rendezvous with other vehicles for the 
trip to the lunar surface.
    These are but a few examples of the ongoing work needed to 
make NASA's goals a reality. It is my hope, Dr. Griffin, that 
the implementation of the President's vision can be 
accomplished while maintaining the capabilities that NASA has 
developed in other mission areas. I do not believe that we 
should sacrifice missions and capabilities that will be vital 
to the future of exploration while trying to obtain this goal. 
I believe that we can and should find a balance here.
    Much like last year's hearing, we are reminded today that 
the proposed plan for returning to the Moon is contingent on 
several factors. We are all keenly aware that any unexpected 
bump along the path could pose significant challenges to NASA's 
long-term plans. We can point to the sizable funding 
requirements of flying the Space Shuttle until it retires in 
2010 and the ongoing construction of the International Space 
Station's heavy fiscal burdens on NASA's ability to continue 
down the path laid out in the vision for exploration.
    The continual strains on NASA's budget require that we all 
work together as partners to ensure NASA can meet its many 
objectives.
    Dr. Griffin, I am very interested in you discussing how 
NASA today will preserve its ongoing programs and how it will 
modernize its ongoing programs and how it will modernize its 
institutions and facilities which are critical to NASA's 
success in the coming years. I expect that we will have an 
ongoing dialogue over the course of the year about NASA's 
ability to achieve the Vision for Space Exploration.
    I am also excited by the opportunities that lay ahead 
regarding the exploration vision at NASA. But I must point out 
the fiscal realities that you face every day that have and will 
continue to affect some of these efforts. NASA must show the 
same resourcefulness in operating within fiscal reality on the 
ground as it does in its innovation and can-do spirit for 
exploring space.
    Dr. Griffin, I believe that the subcommittee has made every 
effort to work with you and we will continue to provide NASA 
with the appropriate level of funding to ensure that roles and 
missions are protected and preserved. When such significant 
funds are provided, it is NASA's responsibility to have the 
systems in place to ensure that these funds are spent 
responsibly.
    I am concerned that for the fourth year in a row NASA's 
financial systems have earned the worst rating possible from 
the administration. We were assured in our hearing last year 
that efforts were underway to fix these problems. Yet, 
according to the administration there has been little progress 
since we last met. In addition, the Government Accountability 
Office (GAO) has released its annual high risk report that 
focuses on programs with the greatest vulnerability to fraud, 
waste, and mismanagement. NASA has the unfortunate distinction, 
Dr. Griffin, of having been included in the 1990 inaugural 
edition for its contract management and remains on the high 
risk list to this day.
    Finally, the annual audit of NASA's financial statement by 
an independent auditing firm does not bring me any comfort. 
NASA's finances were disclaimed in both 2005 and 2006 due to an 
inability to provide auditable financial statements as well as 
material weaknesses in its financial systems regarding the 
management of property and equipment. With such assessments of 
NASA's accounting, the agency's $17.3 billion request should be 
backed up, I believe, by solid budget practices, not shoddy, 
unclear bookkeeping. I believe that NASA should be as committed 
to fiscal responsibility to this subcommittee, the 
Appropriations Committee, and the taxpayer as it is to your 
exploration mission, which we commend you for.
    I think, Dr. Griffin, NASA must be better as far as what is 
going on with its books. I look forward, Dr. Griffin, to 
discussing how we may find a solution that keeps all of NASA's 
activities moving forward. It will be a difficult task, given 
the demands for funding across all of the agencies in this 
bill. The administration did not leave many crumbs on the table 
after making severe cuts to, among other things, NOAA and the 
proposed over $1.5 billion in reductions to State and local law 
enforcement. But we are willing to work with you and the 
chairman to ensure that NASA receives the funds necessary to 
achieve the Nation's goals. We look forward to your testimony.
    Senator Mikulski. Thank you.
    Now I would like to turn to Dr. Griffin, but I also want to 
acknowledge--Senator, can you stay for the hearing then? I know 
you have a lot of pressures with Defense.
    Senator Stevens. We have a Defense hearing at 2:30. I will 
have to leave soon, but I would like to hear Dr. Griffin if 
possible.
    Senator Mikulski. As soon as Dr. Griffin finishes, to 
accommodate you, Senator, shall we turn to you then for 
questions? Okay.
    Dr. Griffin. Senator, in deference to your time constraints 
today, I will keep my opening remarks short, but would like to 
enter my opening statement in the record along with my other 
formal statement.
    Senator Mikulski. We also want to note this is the third 
day that you are testifying on NASA budget, two in the House 
yesterday, the authorizers and the appropriators, and this is 
the third.

                ADMINISTRATOR GRIFFIN'S OPENING REMARKS

    Dr. Griffin. Thank you.
    Chairman Mikulski, Senator Shelby, members of the 
subcommittee: I thank you for inviting me here today to discuss 
our $17.3 billion fiscal year 2008 request. I am here today to 
seek your support for that request. The fiscal year 2008 budget 
request is 3.1 percent higher than that requested by the 
President for fiscal year 2007 and demonstrates his commitment 
to maintaining our Nation's leadership role in space 
exploration, scientific discovery, and aeronautics research.
    But it supports many diverse priorities in these 
disciplines and so we need to allocate our resources carefully. 
In this we are guided by the NASA Authorization Act, our annual 
appropriations legislation, Presidential policy, and the 
decadal surveys of the national academies. But even so, we 
cannot afford everything that our many constituencies would 
like us to do. You will not find major strategic changes in the 
fiscal year 2008 budget request as compared to that for last 
year, but you will see some slight course corrections. Overall 
I think we are heading in the right direction and I think we 
have made great strides in the past year and we are on track 
and making progress in carrying out our tasks.
    We have aligned NASA's aeronautics program with the first 
ever presidential policy on aeronautics research and 
development (R&D). The goal of this policy is to ensure that 
NASA and other agencies advance U.S. technological leadership 
in aeronautics.
    We currently operate an armada of over 50 Earth and space 
science satellites and payloads today in orbit around the 
Earth, our Sun, and other planets. The fiscal year 2008 budget 
request provides the resources to launch 10 new science 
missions in that year, most of which involve international 
partners or other U.S. Government agencies. Our $5.5 billion 
portfolio of Earth and space science accounts for almost 32 
percent of the budget.
    It is interesting to develop some perspective on this. 
During the 1960s, the decade of Apollo, science was 17 percent 
of the NASA portfolio. By the early 1990s, it had grown to 24 
percent and today, as I said, it is 32 percent. In contrast, 
NASA's human space flight account during the Apollo years was 
63 percent of the budget and is 62 percent today. So science is 
doing very well at NASA.
    Now, our greatest challenge over the next few years is to 
fly the Space Shuttle safely while using it to finish the 
International Space Station and to do one final Hubble Space 
Telescope mission, and then transitioning to our new systems, 
the Orion crew exploration vehicle and the Ares 1 immediately 
thereafter.
    Human space flight is a strategic capability for this 
Nation. We are now, as you know, facing about 4, 4\1/2\ year 
gap following Space Shuttle retirement when the United States 
will not have its own human space flight capability. Some in 
the Earth and space science community have called for further 
delays in NASA's human space flight efforts in order to allow 
more money to be set aside for science missions. I do not agree 
with this and, in fact, I often wonder what the community of 
scientists would say if they and not the human space flight 
community were facing a 4\1/2\ desert of opportunity.
    If Orion is further delayed, we will be viewed by many as 
ceding our Nation's leadership in human space flight at a time 
when Russia and China have such capabilities and India has 
declared its intention to develop them.
    In 1963 President Kennedy visited Redstone Arsenal in 
Huntsville and posed the following question: ``I know there are 
lots of people now who say, why go any further in space. When 
Columbus was halfway through his voyage the same people said, 
why go on any further? What will we possibly find? What good 
will it be? They want to stop now. I believe the United States 
of America is committed to be first in space, and the only way 
we are going to be first in space is to work as hard as we can 
here and all across the country.''
    I love that quote for its endorsement of the necessity to 
stay the course.
    So when you consider our fiscal year 2008 funding request, 
I ask you to consider our Nation's interests above the 
interests of any individual product, program, or constituency. 
The United States is a recognized leader in space because 
several successive Presidents and Congresses have worked 
together in the past to make the right strategic decisions, but 
this leadership is something we cannot take for granted.

                           PREPARED STATEMENT

    I believe that our budget request today provides you with a 
carefully considered, balanced set of programs for our Nation's 
civil space effort, with world-class Earth and space science, 
strategic capabilities in human space flight, and U.S. 
technical leadership in aeronautics. We need the help of the 
Congress to provide the resources to maintain that leadership.
    Thank you.
    [The statement follows:]
                Prepared Statement of Michael D. Griffin
    Chairman Mikulski and members of the subcommittee, thank you for 
the opportunity to appear today to discuss the President's Fiscal Year 
2008 Budget request for NASA. The President's Fiscal Year 2008 Budget 
request for NASA is $17.3 billion. This represents a 3.1 percent 
increase over the fiscal year 2007 request for the agency, but not the 
enacted fiscal year 2007 appropriation. The fiscal year 2008 budget 
request for NASA demonstrates the President's continued commitment to 
our Nation's leadership in space and aeronautics research, especially 
during a time when there are other competing demands for our Nation's 
resources. The fiscal year 2008 budget request reflects a stable plan 
to continue investments begun in prior years, with some slight course 
corrections. Overall, I believe that we are heading in the right 
direction. We have made great strides this past year, and NASA is on 
track and making progress in carrying out the tasks before us.
    Before I outline the fiscal year 2008 budget request, I would like 
to address the status of NASA's plans for the use of fiscal year 2007 
funding. On February 15, 2007, the President signed into law a joint 
resolution stipulating fiscal year 2007 funding levels for NASA and 
other Federal agencies. This appropriation represents a funding level 
that is $545 million below the President's fiscal year 2007 request. 
The fiscal year 2008 budget request could not possibly factor the 
impact of this reduced level from the fiscal year 2007 request for 
NASA's carefully-considered multi-year programs, and thus, several 
programs in the fiscal year 2008 budget request will be impacted. The 
fiscal year 2007 appropriation further specifies funding levels in 
human spaceflight of that are $677 million below the request--$577 
million of that from exploration systems. This reduction from the 
requested level may significantly impact our ability to safely and 
effectively transition from the shuttle to the Orion Crew Exploration 
Vehicle and Ares I Crew Launch Vehicle. It will have serious effects on 
many people, projects, and programs this year, and for the longer term. 
As I noted during last year's congressional hearings on NASA's fiscal 
year 2007 budget request, we have a carefully balanced set of 
priorities to execute on behalf of our Nation. So as a result of these 
funding levels that are less than the fiscal year 2007 request, NASA is 
carefully assessing the implications to overall exploration priorities 
and milestones, and will present detailed impacts after a full analysis 
is complete. The initial NASA operating plan for fiscal year 2007, 
which, we are endeavoring to finalize as soon as practicable, will 
reflect the impacts of less funding than planned and the requisite 
decisions. As always, we are here to carry out our Nation's civil space 
and aeronautics programs with the resources made available by the 
Congress. All of our programs proceed in a ``go-as-we-can-afford-to-
pay'' manner; so if we receive less funding than requested, we will 
adjust our pace. Our stakeholders have my commitment to continue to 
keep them informed as to what I believe is the best approach to 
carrying out NASA's space and aeronautics research missions with the 
resources provided. In this determination, I will be guided by the NASA 
authorization acts, annual appropriations acts, presidential policy, 
and the decadal survey priorities of the National Academy of Sciences. 
If we determine that there is an agency objective that we will be 
unable to meet, I will inform our agency's stakeholders, including this 
subcommittee.
Highlights of the NASA Fiscal Year 2008 Budget Request
    The fiscal year 2008 budget request for NASA is a carefully 
considered and balanced request formulated over many months with the 
White House. Unfortunately, the Congress had not completed action on 
the fiscal year 2007 budget at the time the fiscal year 2008 budget was 
being finalized, so the impact of the final fiscal year 2007 
appropriation outcome is not accounted for in NASA's fiscal year 2008 
budget request. The fiscal year 2008 budget request weaves together the 
Nation's priorities in space exploration, scientific discovery, and 
aeronautics research that will help fuel this Nation's future, creating 
new opportunities for scientific benefit, economic growth, national 
security, and international cooperation.
    The greatest challenge NASA faces is safely flying the Space 
Shuttle to assemble the International Space Station (ISS) prior to 
retiring the shuttle in 2010, while also bringing new U.S. human 
spaceflight capabilities on-line soon thereafter. We must understand 
that, given proper goals, human spaceflight is a strategic capability 
for this Nation, and we must not allow it to slip away. In January, we 
remembered those whom we have lost in the exploration of space. In the 
aftermath of the Columbia tragedy, President Bush addressed the NASA 
workforce, saying, ``In your grief, you are responding as your friends 
would have wished--with focus, professionalism, and unbroken faith in 
the mission of this agency.'' We must commit ourselves to the focus of 
professionalism and unbroken faith every day in order to carry out the 
tasks before us.
    In analyzing not only the root causes, but also the systemic 
reasons behind the Columbia accident, the Columbia Accident 
Investigation Board (CAIB) made critical observations that guided the 
formulation of our present civil space policy. I fear that with the 
passage of time and the press of other concerns, we may be losing sight 
of some of these principles, so let me reiterate some of them here 
today. First, the CAIB noted that, ``The U.S. civilian space effort has 
moved forward for more than 30 years without a guiding vision.'' 
Second, ``because the shuttle is now an aging system but still 
developmental in character, it is in the Nation's interest to replace 
the shuttle as soon as possible as the primary means for transporting 
humans to and from Earth orbit.'' Third, ``the previous attempts to 
develop a replacement vehicle for the aging shuttle represent a failure 
of national leadership.'' And finally, the board noted that ``this 
approach can only be successful: if it is sustained over the decade; if 
by the time a decision to develop a new vehicle is made there is a 
clearer idea of how the new transportation system fits into the 
Nation's overall plans for space; and if the U.S. Government is willing 
at the time a development decision is made to commit the substantial 
resources required to implement it.''
    Since then, the President, the Congress and NASA have charted a new 
course in U.S. civil space policy that addresses all of these points, 
and the President's Fiscal Year 2008 Budget reaffirms that commitment 
with the necessary funds for the space shuttle and the ISS. NASA will 
continue forward at the best possible pace with the development of the 
Orion and Ares I crew vehicles. However, due to the cumulative effect 
of previously underestimated costs to retire/transition the space 
shuttle and support the International Space Station, the reduction from 
the fiscal year 2007 request reflected in the fiscal year 2007 
continuing resolution, and the maturing design and integrated flight 
tests baselined for the Constellation program, it is unlikely that NASA 
will be able to bring these new exploration capabilities online by 
2014. Full funding of NASA's fiscal year 2008 exploration systems 
request is critical to ensuring the gap between retirement of the space 
shuttle and the new U.S. human spaceflight capability does not grow 
longer. If the gap in our human spaceflight capability extends even 
further than already planned, I believe our Nation will be ceding 
leadership in human spaceflight at a time when China and Russia have 
their own indigenous capabilities and India is developing its own 
capabilities. If we do not quickly come to grips with this issue, 
America may have a prolonged gap between the end of the shuttle program 
and the beginning of Orion and Ares I operational capability, a gap 
similar to the one that occurred from 1975 to 1981 when our Nation 
transitioned from Apollo to the space shuttle.
    NASA has a lot of hard work ahead of it and many major milestones 
this year and next. The transition from the space shuttle to the Orion 
and Ares launch vehicles over the next several years must be carefully 
managed, and we must be focused, professional and committed to our 
mission. This is NASA's greatest challenge, and I ask the 
subcommittee's help in meeting it.
    In the important area of Earth science, we recently received the 
first-ever Decadal Survey for Earth science from the National Academy 
of Sciences, which NASA, the National Oceanic and Atmospheric 
Administration (NOAA), and the United States Geological Survey (USGS) 
requested in 2003. As the first of its kind, the survey has drawn 
considerable attention, and we will observe the programmatic priorities 
for Earth Science which it advocates. In addressing the survey's Earth 
science priorities, and consistent with ensuring that NASA maintains a 
balanced portfolio of science as directed by the NASA Authorization Act 
of 2005 (Public Law 109-155), we have added funding to the Global 
Precipitation Measurement (GPM) mission, the follow-on to the highly 
successful Tropical Rainfall Measuring Mission (TRMM), to improve our 
ability to keep this mission on schedule. Our plan is to launch the 
first core satellite for the GPM mission not later than 2013, followed 
by the second Constellation spacecraft the following year. The fiscal 
year 2008 budget request also augments funding for the Landsat Data 
Continuity Mission (LDCM) and Glory missions in order to help keep 
those projects on schedule. Within planetary sciences, funding has been 
identified for Lunar science research project beginning in fiscal year 
2008 to leverage the many opportunities for payloads on NASA and other 
nations' lunar spacecraft, such as India's Chandrayaan-1, as well as to 
analyze the science data from these missions, including NASA's Lunar 
Reconnaissance Orbiter. In 2008, we will launch a host of Heliophysics 
missions, many with international and interagency partners, to analyze 
the effects of solar flares, coronal mass ejections, and galactic 
cosmic rays. In Astrophysics, the final Hubble servicing mission is 
currently planned for a space shuttle flight in September 2008. And, as 
I advised the Congress and the science community last summer, NASA has 
reinstated the Stratospheric Observatory for Infrared Astronomy (SOFIA) 
mission. Though we know of no technical showstoppers in regard to the 
airworthiness of the aircraft or operation of the telescope, this 
program has some remaining hurdles to overcome and so remains subject 
to a management review later this spring. NASA will launch or 
participate in seven science missions in fiscal year 2007, followed by 
10 missions in fiscal year 2008, resulting in many new Earth and space 
science discoveries in the years ahead.
    The fiscal year 2008 budget request increases the budget profile 
for Aeronautics Research over the President's fiscal year 2007 request, 
aligns our aeronautics activities with the President's recently issued 
Aeronautics Research and Development Policy, and advances U.S. 
technical leadership in aeronautics. NASA has made significant progress 
in reformulating its approach to aeronautics research by collaborating 
with the broad research community including industry, academia, and 
other government agencies including the Federal Aviation Administration 
(FAA) and the Department of Defense (DOD). Through these changes, NASA 
will help ensure that America continues to lead the way in aeronautics 
research.
    NASA continues to monitor and manage our ``uncovered capacity'' 
(employees not directly assigned to specific projects and programs). A 
little over 18 months ago, nearly 3,000 of NASA's 19,000 employees were 
designated as ``uncovered capacity.'' Today, largely with the work 
defined in the Constellation program, we have greatly reduced that 
problem to manageable levels. As of February 2007, we have fewer than 
200 uncovered capacity employees in fiscal year 2007 and fiscal year 
2008. More importantly, many of our best engineers are working 
diligently on the great challenges before us. Every NASA center is now 
vested in our space exploration mission. While we are proud of the 
progress that has been made, significant human capital challenges 
remain. These include matching available skills with the important work 
to be done, managing attrition, retraining and hiring, and improving 
our workforce planning for future years in fiscal year 2009 and beyond. 
To address these challenges and any potential impacts resulting from 
the fiscal year 2007 funding reductions, we have established a new 
intra-agency Workforce Planning Technical Team.
    In addition, beginning in fiscal year 2007, the agency revised 
overhead allocations to simplify how we manage under full cost 
accounting. These changes will ensure a uniform cost rate for all NASA 
civil servants across the agency's government field centers. All 
changes are revenue-neutral to programs and projects; none of NASA's 
missions gain or lose funding as a result of this accounting change. At 
first glance, this accounting change appears to reduce the Aeronautics 
Research budget because so much of that work is done at our smaller 
research centers. However, in actuality, NASA's direct spending for 
Aeronautics Research has increased in the fiscal year 2008 budget 
runout by $205 million through fiscal year 2011 compared to the fiscal 
year 2007 budget runout.
    Beyond our budget request, NASA is beginning to transition the 
workforce, infrastructure, and equipment from the space shuttle to new 
exploration systems. Many of our most experienced people will be 
considering retirement between now and 2010. We will need the means to 
manage this attrition in a targeted manner to achieve better alignment 
of the workforce with our mission without creating unwanted losses and 
skills imbalances. One tool we may be using is the authority for the 
agency to be able to re-employ selected retirees without an offset to 
their annuity--thus giving them an incentive to see a project or 
program to completion. To assist employees with transition to the 
private sector, and to ease that upheaval, another tool would authorize 
NASA to continue their coverage under the Federal Employees Health 
Insurance for 1 year after departure.
    We will also need better tools to manage the transition of our 
facilities. The agency is proposing slight changes and expansion to 
existing authority to permit leasing of underutilized facilities and 
related equipment. The agency would retain the proceeds of those leases 
to be deposited in a NASA capital asset account and invested in 
activities to improve and sustain our facilities and infrastructure. We 
plan to discuss the details of these legislative requests with members 
of Congress in the weeks and months ahead.
    The remainder of my testimony outlines the fiscal year 2008 budget 
request for NASA in greater detail.
Science Mission Directorate
    This past year was truly remarkable for science discovery about the 
Earth, Sun, solar system, and universe. NASA was responsible for 11 
percent of Science News magazine's top stories (covering all fields of 
science) for 2006, which is an all-time record in the 34 years of 
tracking this metric. NASA's findings ranged from new observations of 
familiar phenomena like hurricanes, thunderstorms, and rainfall, to the 
identification of 16 new extra-solar planets orbiting distant stars 
near the center of our galaxy. As NASA continues to add observations 
from long-lived assets such as the Spirit and Opportunity Mars 
Exploration Rovers, it continues to successfully develop and launch the 
next generation of missions and to support a vigorous scientific 
community.
    In 2006, NASA launched four new science missions, one technology 
demonstration mission, and partnered with other Federal and 
international agencies to launch three other science and technology 
missions, as well as the GOES-O satellite, to bring the current total 
number of operational science missions to 52. In January 2006, we 
launched the New Horizons spacecraft to the planet Pluto. Scheduled to 
arrive at Pluto in 2015, the spacecraft made its closest approach to 
Jupiter in late February. With the April 2006 launch of the CloudSat 
and Cloud-Aerosol Lidar and Infrared Pathfinder Satellite Observations 
(CALIPSO) spacecraft, NASA added to the ``A-train'' of satellites 
flying in close proximity around Earth to gain a better understanding 
of key factors related to climate change. In October 2006, NASA's twin 
Solar Terrestrial Relations Observatories mission (STEREO) spacecraft 
were launched to help researchers construct the first-ever 3-
dimensional views of the Sun. Although the two spacecraft will not 
return images until later this year, initial results from STEREO have 
provided us with an unprecedented look at solar activity. On February 
17, 2007, we launched five Time History of Events and Macroscale 
Interactions during Substorms (THEMIS) microsatellites to study the 
Earth's magnetosphere, and we are on track to launch the Dawn mission 
to main belt of asteroids between Mars and Jupiter and the Phoenix Mars 
mission later this year.
    NASA's fiscal year 2008 budget requests $5.5 billion for the 
agency's science portfolio. This represents an increase of $49.3 
million (or 1 percent) over the fiscal year 2007 request and it will 
enable NASA to launch or partner on 10 new missions, operate and 
provide ground support for more than 50 spacecraft, and fund scientific 
research based on the data returned from these missions. For fiscal 
year 2008, NASA separated the Earth-Sun System theme into two themes: 
Earth Science and Heliophysics, and programmatic responsibility for 
studies of Near Earth Objects is transferred to the Exploration Systems 
Mission Directorate.
    The Earth science budget requests $1.5 billion--an increase of 
$27.7 million over the fiscal year 2007 request--to better understand 
the Earth's atmosphere, lithosphere, hydrosphere, cryosphere, and 
biosphere as a single connected system. This request includes 
additional funding for the Global Precipitation Measurement (GPM) 
mission to improve schedule assurance in response to the high priority 
placed on GPM in the Decadal Survey. As the follow-on to the highly 
successful Tropical Rainfall Measuring Mission, NASA's plans to launch 
GPM's first Core satellite no later than 2013, followed by the second 
Constellation spacecraft the following year. The Earth science budget 
also includes increased funding for the Landsat Data Continuity Mission 
and Glory in order to help keep them on their schedules, and provides 
funds for the National Polar-orbiting Operational Environmental 
Satellite System (NPOESS) Preparatory Project (NPP) to reflect 
instrument availability and launch delays. Funds are requested for 
continued development and implementation of the Ocean Surface 
Topography Mission to launch in 2008, the Aquarius mission to measure 
the ocean's surface salinity to launch in 2009, and the Orbiting Carbon 
Observatory mission planned for launch in 2008. NASA will continue to 
contribute to the President's Climate Change Research Initiative by 
collecting data sets and developing predictive capabilities that will 
enable advanced assessments of the causes and consequences of global 
climate change. Over the coming months, NASA will evaluate 
opportunities for implementing the recommendations of the National 
Research Council's Earth Science Decadal Survey and responding to 
challenges to the continuity of climate measurements resulting from the 
Nunn-McCurdy recertification of the NPOESS program.
    The Heliophysics budget request of $1.1 billion will support 14 
operational missions to understand the Sun and its effects on Earth, 
the solar system, and the space environmental conditions that will be 
experienced by astronauts, and to demonstrate technologies that can 
improve future operational systems. During fiscal year 2008, the 
Explorer Program will launch the Interstellar Boundary Explorer (IBEX) 
mission, focused on the detection of the very edge of our solar system, 
and the Coupled Ion-Neural Dynamics Investigation (CINDI) Mission of 
Opportunity conducted by the University of Texas. The Solar Dynamics 
Observatory (SDO) to study the Sun's magnetic field will complete 
launch readiness milestones in fiscal year 2008 and is presently 
scheduled for launch in August of 2008. The Geospace Radiation Belt 
Storm Probes (RBSP) mission, presently in formulation, will undergo a 
preliminary design review and a non-advocate review in fiscal year 2008 
in preparation for entering development in early fiscal year 2009. RBSP 
will improve the understanding of how solar storms interact with 
Earth's Van Allen radiation belts. While the ST-7 and ST-8 missions are 
on track for launches in 2009, the New Millennium ST-9 mission, along 
with follow-on missions, is delayed.
    The planetary science budget request of $1.4 billion will advance 
scientific knowledge of the solar system, search for evidence of 
extraterrestrial life, and prepare for human exploration. NASA will get 
an early start on Lunar science when the Discovery Program's Moon 
Mineralogy Mapper (M3) launches aboard India's Chandrayaan-1 mission in 
March 2008, along with the Mini-RF, a technology demonstration payload, 
supported by NASA's Exploration and Space Operations Mission 
Directorates and the Department of Defense, which may glean water in 
the Moon's polar regions. In addition, the budget requests $351 million 
from fiscal year 2008 to fiscal year 2012 for new Lunar science 
research, including missions of opportunity, data archiving, and 
research. The budget supports the Mars Exploration Program by providing 
for a mission every 26 months, including the Phoenix spacecraft, 
scheduled for launch in 2007, and the Mars Science Laboratory, with a 
launch scheduled for 2009. The Discovery Program's Dawn Mission is 
scheduled to launch later this year, and the Mercury Surface, Space 
Environment, Geochemistry and Ranging (MESSENGER) spacecraft is already 
on its way to Mercury. Three Discovery Mission proposals and three 
Missions of Opportunity were selected in 2006 for Phase A studies, and 
the Discovery Program will invite proposals for additional new missions 
in 2008. With the New Horizons spacecraft continuing on its way to 
Pluto, the New Frontiers Program's Juno Mission will undergo a 
preliminary design review and a non-advocate review in fiscal year 2008 
in preparation for entering development. The New Frontiers Program will 
release its third Announcement of Opportunity (AO) in late 2008.
    The Astrophysics budget requests $1.6 billion to operate NASA's 
astronomical observatories, including the Hubble Space Telescope (HST), 
Chandra X-Ray Observatory, and Spitzer Space Telescope, and to build 
more powerful instruments to peer deeper into the cosmos. HST is 
scheduled for a final servicing mission in September 2008 using the 
space shuttle Atlantis. Along with service life extension efforts, two 
new instruments will be installed during the servicing mission that are 
expected to dramatically improve performance and enable further 
discoveries, including enabling some science observations that have 
been affected by the recent failure of the Advanced Camera for Surveys. 
After the servicing mission, HST will once again have six fully 
operational instruments (including a suite of cameras and spectrographs 
that will have about 10 times the capability of older instruments) as 
well as new hardware capable of supporting at least another 5 years of 
world-class space science. The ESA Herschel and Planck missions, both 
of which include contributions from NASA, will launch in fiscal year 
2008 aboard an ESA-supplied Ariane-5. Kepler instrument and spacecraft 
integration and test will be completed in preparation for launch in 
November 2008, to determine the frequency of potentially habitable 
planets. The Gamma-ray Large Area Space Telescope (GLAST) will launch 
in fiscal year 2008 to begin a 5-year mission mapping the gamma-ray sky 
and investigating gamma-ray bursts. The James Webb Space Telescope will 
undergo preliminary design review and a non-advocate review in fiscal 
year 2008, in preparation for entering development. The SOFIA 
observatory has been reinstated. Though we know of no technical 
showstoppers in regard to the airworthiness of the aircraft or 
operation of the telescope, this program has some remaining hurdles to 
overcome and so remains subject to a management review later this 
spring chaired by the NASA associate administrator. The SOFIA program 
baseline will be finalized at that time.
Exploration Systems Mission Directorate
    The fiscal year 2008 budget request for the Exploration Systems 
Mission Directorate (ESMD) is $3.9 billion to support continued 
development of new U.S. human spaceflight capabilities and supporting 
technologies, and to enable sustained and affordable human space 
exploration after the space shuttle is retired in 2010. With this 
budget, ESMD will continue to develop our next-generation crew 
exploration vehicle, while also providing research and developing 
technologies for the longer-term development of a sustained human 
presence on the Moon. However, due to the cumulative effect of 
previously underestimated costs to retire/transition the space shuttle 
and support the International Space Station, the reduction from the 
fiscal year 2007 request reflected in the fiscal year 2007 continuing 
resolution, and the maturing design and integrated flight tests 
baselined for the Constellation program, it is unlikely that NASA will 
be able to bring these new exploration capabilities online by 2014. 
ESMD will also continue to work with other nations and the commercial 
sector to leverage its investments and identify opportunities for 
specific collaboration on lunar data and lunar surface activities. New 
human spaceflight development of this magnitude, such as the Orion Crew 
Exploration Vehicle, occurs once in a generation. The next 5 years are 
a critical period in our Nation's space flight efforts.
    The Constellation program includes the Orion Crew Exploration 
Vehicle; Ares I, a highly reliable crew launch vehicle; Commercial 
Orbital Transportation Services (COTS) demonstrations of cargo and crew 
transport to the International Space Station; Ares V, a heavy-lift 
launch vehicle; spacesuits and tools required by the flight crews and; 
associated ground and mission operations infrastructure to support 
either lunar and/or initial low-Earth orbit (LEO) missions.
    For fiscal year 2008, pending a full analysis of the fiscal year 
2007 budget impacts, ESMD is on track to maintain its commitments for 
Ares I and Orion, and to continue meeting major milestones. This year 
Constellation will continue to mature and develop overall. Formulation 
of the Constellation elements will continue, leading to the preliminary 
design review in 2008, at which time the program will be baselined. 
NASA will conduct an update for the overall Constellation Systems 
Requirements Review (SRR) in 2007 after the completion of all the 
Program Element SRRs--the Orion Project recently completed its SRR on 
March 1, 2007. ESMD released the Ares I Upper Stage Request for 
Proposals (RFP) on February 23, 2007. The RFP for the Ares I Avionics 
Ring is scheduled for release in May 2007, with selection and contract 
award scheduled for November 2007.
    Facility, equipment, and personnel transitions from space shuttle 
to Constellation will be the major emphasis of the fiscal year 2009 
budget process. NASA transition activities are focused on managing the 
evolution from current operations of the space shuttle to future 
operations of Constellation and emerging commercial services, in a 
safe, successful and smooth process. This joint effort between the 
Space Operations Mission Directorate (SOMD) and ESMD includes the 
utilization and disposition of resources, including real and personal 
property, personnel, and processes, to leverage existing shuttle and 
International Space Station assets for NASA's future exploration 
activities. Formalized transition boards are working to achieve this 
outcome. A Human Spaceflight Transition Plan was developed in 2006; 
updates are in work, and metrics for the plan are being refined and 
will be implemented in 2007.
    In August 2006, NASA signed Space Act Agreements with Space 
Exploration Technologies Corporation, of El Segundo, California, and 
Rocketplane-Kistler, of Oklahoma City, Oklahoma, to develop and 
demonstrate COTS that could open new markets and pave the way for 
commercial providers to launch and deliver crew and cargo to the ISS. 
The Space Act Agreements establish milestones and identify objective 
criteria to assess their progress throughout Phase 1 of the 
demonstrations. In the fiscal year 2008 budget, funding for the 
purchase of crew and cargo transportation services, either from 
international partners or preferably from commercial providers, is 
transferred from ESMD to SOMD. COTS demonstration funding remains in 
ESMD to better exploit potential synergies with the Constellation 
Program.
    With activities in the Advanced Capabilities program, NASA seeks to 
understand the space environment as it relates to human performance by 
addressing respective recommendations from the Exploration Systems 
Architecture Study that was conducted 2005. This included refocusing 
biomedical research and human life-support activities through new 
milestones and requirements to target the timely delivery of research 
products. Accordingly, ESMD created two new programs under Advanced 
Capabilities: the Human Research Program (HRP) to study and mitigate 
risks to astronaut health and performance and the Exploration 
Technology Development Program (ETDP) to enable future exploration 
missions and reduce cost and risk. Plans for 2008 include:
  --Testing of prototype ablative heat shield materials, low-impact 
        docking systems, and landing attenuation systems;
  --testing of advanced environmental control systems on the ISS;
  --developing a lightweight composite command module test article for 
        the Orion;
  --conducting studies to assess risks of long-term radiation exposure 
        and continuing the use of the ISS as a testbed for studying 
        human health and safety in space;
  --spacecraft integration and testing in preparation for the Lunar 
        Reconnaissance Orbiter (LRO) launch in October 2008;
  --next-generation spacesuit capable of supporting exploration; and
  --developing jointly with the U.S. Air Force the RS-68 engine that 
        will be used on the Ares V.
    Finally, the LRO and the Lunar Crater Observatory Sensing Satellite 
(LCROSS) to the Moon is planned to be launched in early fiscal year 
2008. These dual-manifested spacecraft have completed critical design 
review and are currently in development. The science yielded from these 
missions will enable future outpost site selection and new information 
about the deep craters at the lunar poles. The LRO/LCROSS missions 
represent NASA's first steps in returning to the Moon.
Aeronautics Research Mission Directorate
    In 2006, NASA's Aeronautics Research Mission Directorate (ARMD) 
conducted a significant restructuring of its aeronautics program, 
allowing NASA to pursue high-quality, innovative, and integrated 
research that will yield revolutionary tools, concepts, and 
technologies to enable a safer, more flexible, environmentally 
friendly, and efficient national air transportation system. As such, 
ARMD's research will continue to play a vital role in supporting NASA's 
human and robotic space activities. The reshaped Aeronautics Program 
content and direction is consistent with the National Aeronautics 
Research and Development Policy, signed by the President on December 
20, 2006.
    A primary goal across all of the programs in ARMD is to establish 
strong partnerships involving NASA, other government agencies, 
academia, and industry in order to enable significant advancement in 
our Nation's aeronautical expertise. Because these partnerships are so 
important, NASA has put many mechanisms in place to engage academia and 
industry, including industry working groups and technical interchange 
meetings at the program and project level, space act agreements for 
cooperative partnerships, and the NASA Research Announcement (NRA) 
process that provides for full and open competition for the best and 
most promising research ideas. During 2006, ARMD's NRA solicitation 
resulted in the selection of 138 proposals for negotiation for award 
from 72 different organizations representing 29 different States plus 
the District of Columbia. NASA's fiscal year 2008 budget request for 
aeronautics includes $51 million for NRA awards.
    In fiscal year 2008, the President's budget for NASA requests $554 
million for aeronautics research. This budget reflects full cost 
simplification, which significantly reduces the center overhead and 
infrastructure allocated to the aeronautics programs.
    NASA's Airspace Systems Program (ASP) has partnered with the Joint 
Planning and Development Office (JPDO) to help develop concepts, 
capabilities and technologies that will lead to significant 
enhancements in the capacity, efficiency and flexibility of the 
National Airspace System (NAS). Such improvements are critical to meet 
the Nation's airspace and airports requirements for decades to come. In 
fiscal year 2008, NASA's budget request would provide $98.1 million for 
ASP to conduct further research in operational concepts and human-in-
the-loop simulation modeling that supports advancements in automated 
separation assurance capabilities. In addition, ASP will pursue 
enhanced development of airport surface movement trajectory models to 
provide a basis for optimized use of super density airports, integrated 
airport clusters, and terminals where demand for runways is high. Last 
year, ASP took an important step toward this goal by completing 
development of a system-wide operational concept that provides a 
detailed description of future NAS capacity enhancements while 
assessing the benefits of such system improvements. Key to the analysis 
of the operational concepts was program-developed tools such as the 
Airspace Concepts Evaluation System and the Future Air Traffic 
Management Concepts Evaluation Tool, both of which have successfully 
transitioned from NASA to the Federal Aviation Administration and the 
JPDO.
    NASA's Fundamental Aeronautics Program (FAP) conducts research in 
the engineering and scientific disciplines that enable the design of 
vehicles that fly through any atmosphere at any speed. The fiscal year 
2008 budget request, amounting to $293.4 million, will enable 
significant advances in the hypersonics, supersonics, subsonic fixed 
wing, and subsonic rotary wing projects that make up the FAP. These 
projects focus on creating innovative solutions for the technical 
challenges of the future: increasing performance (range, speed, 
payload, fuel efficiency) while meeting stringent noise and emissions 
constraints; alleviating environmental and congestion problems of the 
Next Generation Air Transportation System (NGATS) through the use of 
new aircraft and rotorcraft concepts; and, facilitating access to space 
and re-entry into planetary atmospheres. A wide variety of cross-
cutting research topics are being pursued across the speed regimes with 
emphasis on physics-based multidisciplinary analysis and design, 
aerothermodynamics, materials and structures, propulsion, aero-servo-
elasticity, thermal protection systems, advanced control methods, and 
computational and experimental techniques. A number of key activities 
are planned for fiscal year 2007 and fiscal year 2008 including the 
launch of a suborbital rocket to conduct flight experiments in 
hypersonic boundary layer transition and re-entry shapes, the flight 
test of scale models of the X-48B Blended Wing-Body concept to assess 
this advanced unconventional airframe configuration for its potential 
to decrease aircraft noise while also improving performance, the 
evaluation of radical new concepts for variable-speed rotor 
technologies that can result in highly improved performance, and the 
evaluation of actively-controlled inlets for supersonic transports.
    The fiscal year 2008 budget request for NASA's Aviation Safety 
Program (AvSP) is $74.1 million. The four projects within the program 
(Integrated Intelligent Flight Deck, Integrated Resilient Aircraft 
Control, Aircraft Aging and Durability, and Integrated Vehicle Health 
Management) will develop cutting-edge tools, methods, and technologies 
with close coordination among them to improve the intrinsic safety 
attributes of current and future aircraft that will operate in the 
NGATS. In fiscal year 2008, the program will complete a study of human-
automation technology that will improve safety during approach and 
landing operations by allowing for active operator assistance that 
maintains appropriate levels of workload and will be conducted to 
evaluate neural networks for direct adaptive control that will maximize 
adaptation to simulated in-flight failures while minimizing adverse 
interactions. At the same time, onboard sensor technology will be 
developed and validated to achieve significant improvement in measuring 
atmospheric water content that will improve the ability to detect the 
onset of potential icing hazards. Challenges related to aircraft aging 
and durability will also be addressed by developing models capable of 
simulating the initiation and propagation of minute cracks in metallic 
materials.
    Finally, NASA's Aeronautics Test Program (ATP) will continue to 
safeguard the strategic availability of a critical suite of aeronautics 
test facilities that are deemed necessary to meet agency and national 
aeronautics needs. The fiscal year 2008 budget request for ATP is $88.4 
million, which will enable strategic utilization, operations, 
maintenance and investment decisions for major wind tunnel/ground test 
facilities at Ames Research Center, Glenn Research Center and Langley 
Research Center and for the Western Aeronautical Test Range support 
aircraft and test bed aircraft at Dryden Flight Research Center. In 
fiscal year 2006, NASA implemented procedures to ensure affordable and 
competitive pricing of its aeronautics facilities for use by other 
parties, including industry and university researchers. In fiscal year 
2008, ATP plans to continue ensuring competitive prices for ATP 
facilities, reducing a backlog of maintenance issues and investing in 
advanced technologies such as installing consistent angle of attack 
instrumentation at the research centers.
Space Operations Mission Directorate
    This was an extraordinary year for the space shuttle and 
International Space Station (ISS) programs. NASA celebrated 
Independence Day 2006 by launching space shuttle Discovery on the STS-
121 mission. The second of two test flights (the first was STS-114 in 
July/August 2005), STS-121 helped validate the improvements made to the 
space shuttle system since the loss of Columbia on February 1, 2003. 
The mission also marked the return of a complement of three crewmembers 
to the ISS. The space shuttle Atlantis (STS-115), which launched on 
September 9, marked a return to sustained space shuttle operations and 
placed NASA on track to completing assembly of the ISS by 2010. STS-115 
delivered the critical P3/P4 truss to the ISS, which will provide a 
quarter of the power services needed to operate the completed research 
facility. The last flight in December 2006, STS-116, was devoted 
primarily to deactivating the electrical power systems on the U.S. 
segment of the ISS and making a series of electrical and coolant 
connections between the P3/P4 truss segment and the rest of the 
station. To do this, flight controllers at the mission control centers 
in Houston and Moscow uplinked over 17,900 commands to the ISS during 
the mission--all without a single unplanned or command error. STS-116 
crewmember Robert Curbeam also set a record for the most spacewalks 
ever conducted by an astronaut on a single space shuttle mission, with 
four excursions totaling over 25 hours.
    Operational activities onboard the ISS have continued into 2007, 
with a series of spacewalks that reconfigured the thermal system on the 
station and prepared us for future assembly tasks. The station is now 
able to provide additional power to the space shuttle, allowing two 
extra docked days, and we have connected permanent systems in place of 
temporary ones. The sequence of three complex spacewalks within 9 days 
also demonstrated capabilities we will need later this year to fully 
install Node 2 following its delivery on STS-120.
    These mission achievements reflect the NASA team's dedication to 
safely and successfully flying out the space shuttle program and 
meeting our Nation's commitments to our international partners. The 
program's successes also led to the decision in October 2006 to move 
forward with plans for a final servicing mission to the Hubble Space 
Telescope (HST). Following an extensive review by the relevant NASA 
offices of all safety and technical issues associated with conducting 
such a mission, it became clear that an HST servicing mission could be 
carried out effectively and safely. While there is an inherent risk in 
all spaceflight activities, the desire to preserve a truly 
international asset like the HST makes doing this mission the right 
course of action.
    The space shuttle fiscal year 2008 budget request of $4.01 billion 
would provide for five shuttle flights, including four ISS assembly 
flights as well as the HST servicing mission. The ISS assembly flights 
include the launch of major research facility modules from the European 
Space Agency and Japan. The Canadian Special Purpose Dexterous 
Manipulator robotic system will also be flown in 2008. These flights 
are a major step towards fulfilling U.S. commitments to NASA's 
international partners as specified in the ISS agreements and the 
Vision for Space Exploration.
    The fiscal year 2008 budget request includes $2.24 billion for ISS 
activities. NASA has consulted with our international partners on the 
configuration of the ISS, and is working closely with them to determine 
the detailed plans for logistics required during and after assembly. 
The fiscal year 2008 budget request provides the necessary resources to 
purchase Soyuz crew transport and rescue for U.S. astronauts as well as 
progress vehicle logistics support for the ISS from the Russian Space 
Agency.
    As the shuttle approaches its retirement, the ISS Program intends 
to use alternative cargo and crew transportation services from 
commercial industry. Once a capability is demonstrated in phase 1 of 
the Commercial Orbital Transportation Services (COTS) Space Act 
Agreements, NASA plans to purchase cargo delivery services 
competitively in phase 2 and will decide whether to pursue crew 
demonstrations. In the fiscal year 2008 budget, funding for the 
purchase of crew and cargo transportation services, either from 
international partners or preferably from commercial providers, is 
transferred from the Exploration Systems Mission Directorate to the 
Space Operations Mission Directorate. One item of significance in the 
fiscal year 2008 budget runout, especially in the out-years, is that it 
allows for increases to our previously estimated costs for purchasing 
commercial cargo and crew services to support the ISS, assuming these 
commercial services are successfully demonstrated and are cost-
effective. Should costs for those services be greater than what is 
presently budgeted, NASA has accepted a management challenge to scale 
back on our space operations costs and will curtail some of our robotic 
lunar exploration or long-term exploration technology development in 
the out-years. COTS demonstration funding remains in ESMD to better 
exploit potential synergies with the Constellation Program.
    The space shuttle program's highest priority is to safely complete 
the mission manifest by the end of fiscal year 2010, using as few 
flights as possible. Working through formalized transition control 
board processes, the space shuttle program will also play a key role in 
coordinating the smooth transition of space shuttle assets and 
capabilities to the next generation of exploration systems without 
compromising the safety of ongoing flight operations. The greatest 
challenge NASA faces is safely flying the space shuttle to assemble the 
ISS prior to retiring the shuttle in 2010, while also bringing new U.S. 
human spaceflight capabilities on-line soon thereafter. There are a 
number of major transition milestones set for fiscal year 2008, 
including the transition of one of the four high bays in the vehicle 
assembly building and launch pad 39B to the Constellation Systems 
Program. Space shuttle Atlantis may also be retired in fiscal year 2008 
after the HST SM-4 mission and its systems and parts would be used to 
support the remaining space shuttle orbiters, Discovery and Endeavour, 
during the program's last 2 years of operations. The fiscal year 2008 
budget request reflects the current assessment of costs to retire the 
space shuttle. Over the next year, NASA will develop additional detail 
and refine our cost estimates for the transition.
    The fiscal year 2008 budget also provides for the procurement of 
two additional Tracking and Data Relay Satellite System (TDRSS) 
satellites to replenish the Constellation. NASA projects that the 
availability of aging TDRSS satellites to support overall user demand 
will be reduced by 2009 and depleted by 2015. In order to continue to 
support all users, NASA must begin the procurement process immediately, 
with planned launches in fiscal year 2012 and fiscal year 2013. By 
replenishing the satellites, NASA will be able to meet overall user 
demand through 2016. The Space Operations Mission Directorate has 
partnered with non-NASA users to provide a proportionate investment in 
the replacement capabilities.
Cross-Agency Support Programs
    The fiscal year 2008 budget request for activities within the 
Cross-Agency Support Programs (CASP)--education, advanced business 
systems, innovative partnerships programs, and Shared Capabilities 
Assets Program--is $498.2 million. Within this amount, $34.3 million is 
for the Shared Capability Assets Program (SCAP), which is designed to 
ensure that critical capabilities and assets (e.g. arc jets, wind 
tunnels, super computing facilities, rocket propulsion testing, etc.) 
required agency-wide are available to missions when needed. The fiscal 
year 2008 budget request for Advanced Business Systems, comprising the 
Integrated Enterprise Management Program (IEMP), is $103.1 million. 
Fiscal year 2007 and fiscal year 2008 funding will support IEMP in 
implementing capabilities that improve NASA's tracking and 
accountability of its property, plant, and equipment; integrate human 
capital information, providing employees and management with new, 
secure tools for accessing personnel data, and planning and budgeting 
NASA's workforce; and, provide more relevant and accurate financial 
information in support to NASA's programs and projects. This funding 
also supports ongoing operations and maintenance of NASA's financial 
system and other agency-wide business systems.
    For NASA's education activities, the fiscal year 2008 budget 
request totals $153.7 million and sustains our ongoing commitment to 
excellence in science, technology, engineering, and mathematics (STEM) 
to ensure that our agency is equipped with the right workforce to 
implement the Vision for Space Exploration. NASA will continue the 
tradition of investing in education and supporting educators who play a 
key role in preparing, inspiring, exciting, encouraging, and nurturing 
the youth who will manage and lead the laboratories and research 
centers of tomorrow. NASA education is committed to three primary 
objectives to help improve the state of STEM education in our country: 
strengthen the Nation's and NASA's future workforce; attract and retain 
students in the STEM discipline and; engage the American people in 
NASA's missions through partnerships and alliances.
    The Innovative Partnerships Programs (IPP) provides leveraged 
technology investments, dual-use technology-related partnerships, and 
technology solutions for NASA. The fiscal year 2008 budget request for 
IPP activities is $198.1 million. The IPP implements NASA's Small 
Business Innovative Research (SBIR) and Small Business Technology 
Transfer (STTR) programs that provide the high-technology small 
business sector with an opportunity to develop technology for NASA. 
Recently, NASA has made some changes to the management structure of 
these two programs to better enable technology infusion and to increase 
the efficiency of the operations. IPP also manages the Centennial 
Challenges Program. NASA has already benefited from the introduction of 
new sources of innovation and technology development even though the 
program is relatively new and no prizes have yet been awarded. In 
addition, ongoing and future prize challenges will continue to inspire 
brilliant young minds.
                               conclusion
    NASA has many challenges ahead of us, but we are on track and 
making progress in managing these challenges. The fiscal year 2008 
budget request demonstrates commitment to our Nation's leadership in 
space and aeronautics research, and while we may face a significant 
funding reduction for fiscal year 2007, we will carry on, though not at 
the pace we had previously hoped.
    I ask your help to ensure this Nation maintains a human spaceflight 
capability. Without stable funding as requested in this budget, we face 
the very real possibility of allowing that capability to slip away for 
the foreseeable future--even as other nations continue to develop 
similar capabilities.
    I also need your help to effectively transition key elements of our 
space shuttle workforce, infrastructure, and equipment to our Nation's 
exploration objectives. The provisions I referenced earlier, as well as 
stable funding, will help ensure we preserve a critical and unique 
industrial base capability that has allowed the United States to lead 
the world in space exploration.
    Again, thank you for the opportunity to appear before you today. I 
would be please to respond to any questions that you may have.

            NATIONAL AERONAUTICS AND SPACE ADMINISTRATION PRESIDENT'S FISCAL YEAR 2008 BUDGET REQUEST
                                     [Budget authority, dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                 Fiscal      Fiscal     Fiscal     Fiscal     Fiscal     Fiscal
            By Mission Directorate              year 2007  year 2008  year 2009  year 2010  year 2011  year 2012
----------------------------------------------------------------------------------------------------------------
Science, Aeronautics and Exploration:
    Science:
        Earth Science........................   $1,469.6    $1,497.3   $1,539.7   $1,500.7   $1,411.2   $1,353.2
        Heliophysics.........................   $1,028.1    $1,057.2   $1,034.5   $1,107.1   $1,241.2   $1,307.5
        Planetary Science....................   $1,406.1    $1,395.8   $1,676.9   $1,723.9   $1,738.3   $1,748.2
        Astrophysics.........................   $1,563.0    $1,565.8   $1,304.2   $1,268.9   $1,266.2   $1,393.8
                                              ------------------------------------------------------------------
          Subtotal, Science..................   $5,466.8    $5,516.1   $5,555.3   $5,600.6   $5,656.9   $5,802.7
                                              ==================================================================
    Exploration Systems:
        Constellation Systems................   $3,232.5    $3,068.0   $3,451.2   $3,784.9   $7,666.0   $7,993.0
        Advanced Capabilities................     $920.0      $855.8     $861.6     $973.0   $1,059.1   $1,083.9
                                              ------------------------------------------------------------------
          Subtotal, Exploration Systems......   $4,152.5    $3,923.8   $4,312.8   $4,757.8   $8,725.2   $9,076.8
                                              ==================================================================
    Aeronautics Research: Aeronautics             $529.3      $554.0     $546.7     $545.3     $549.8     $554.7
     Technology..............................
                                              ==================================================================
    Cross-Agency Support Programs:
        Education............................     $167.4      $153.7     $152.8     $152.7     $149.8     $149.6
        Advanced Business Systems............      $97.4      $103.1      $69.4      $71.6      $67.6      $67.5
        Innovative Partnerships Program......     $215.1      $198.1     $197.2     $199.8     $200.0     $200.0
        Shared Capability Assets Pro-  gram..      $22.1       $34.3      $34.2      $36.2      $37.3      $37.2
        Continuing Resolution Rate \1\.......   ($555.60)  .........  .........  .........  .........  .........
                                              ------------------------------------------------------------------
          Subtotal, Cross-Agency Support          $502.0      $489.2     $453.5     $460.4     $454.7     $454.4
           Programs..........................
                                              ==================================================================
          Total, Science, Aeronautics and      $10,650.6   $10,483.1  $10,868.4  $11,364.2  $15,386.5  $15,888.6
           Exploration.......................
                                              ==================================================================
Exploration Capabilities:
    Space Operations:
        Space Shuttle........................   $4,017.6    $4,007.5   $3,650.9   $3,634.4     $116.2  .........
        International Space Station..........   $1,762.6    $2,238.6   $2,515.1   $2,609.2   $2,547.5   $2,600.8
        Space and Flight Support.............     $328.1      $545.7     $544.3     $382.0     $372.9     $377.2
        Continuing Resolution Rate \1\.......     ($40.9)  .........  .........  .........  .........  .........
                                              ------------------------------------------------------------------
          Total, Space Operations............   $6,108.3    $6,791.7   $6,710.3   $6,625.7   $3,036.6   $2.978.0
                                              ==================================================================
Inspector General............................      $33.5       $34.6      $35.5      $36.4      $37.3      $38.3
    Continuing Resolution Rate \1\...........      ($2.0)  .........  .........  .........  .........  .........
                                              ------------------------------------------------------------------
      Total..................................  $16,792.3   $17,309.4  $17,612.2  $18,026.3  $18,460.4  $18,905.0
                                              ==================================================================
Year to Year Change \2\ (percent)............  ..........        3.1        1.8        2.3        2.4        2.4
----------------------------------------------------------------------------------------------------------------
\1\ Fiscal year 2007 column represents the 2007 President's Budget in full-cost simplification and shown in the
  new Theme structure.
\2\ Modification to fiscal year 2007 if current continuing resolution is extended for entire year, and assuming
  $126.1 million institutional mission support transfers from Exploration Capabilities to Science, Aeronautics
  and Exploration not included in totals.Totals may not add due to rounding.

    Senator Mikulski. I have also read your written oral 
testimony particularly, and I appreciate, in the interest of 
time, pages 4, 5, and 6, which I think go to the meat of the 
issues around the continuing resolution, the way forward, 
flashing yellow lights about what will be done when, and 
workforce impact issues, which I know are of keen impact to not 
only those who are currently here, but to certainly extensive 
conversations with Senator Shelby, Senator Sessions, Senator 
Hutchison, and Senator Nelson, which goes to essentially where 
we are in this year's appropriation.
    I am going to ask you a question and if you feel 
comfortable answering it, fine. If not, I understand. But my 
question is, when we look at 2008 what did you ask for from the 
Office of Management and Budget (OMB) and therefore what did 
you get that we would also have to take into consideration, not 
only in terms of the increase that was in the President's 
budget? Because the 3 percent just kind of keeps us almost at 
inflation.
    Dr. Griffin. That is correct, ma'am. I am not able to delve 
into discussions that go on within the Executive Office of the 
President. I will say that everyone gets a full opportunity to 
air their views. I've got mine. Ultimately decisions are made 
and when the President signs his name to that budget it becomes 
his submission, and I work for him and must support that.
    Senator Mikulski. Dr. Griffin, I respect that and I respect 
that confidentiality. But that is also--see, I think the 
President has a vision of where he wanted to go and I think you 
are in alignment with that vision. But I think that there is a 
gap here with the OMB view of the vision, which is why I would 
like us all to get in the room as kind of a space summit. And I 
say that in the most friendly way. It worked so well with the 
President's father and Vice President Quayle.
    Let me move--so just know, I think we all know where we 
want to go. It is how can we get there.
    Dr. Griffin. I admire and am very grateful for the support 
that you have given to the space program on a bipartisan basis, 
regardless of who is in charge when, and I know that that will 
continue.
    Senator Mikulski. Sure.
    Dr. Griffin. Thank you.

                         HUBBLE SPACE TELESCOPE

    Senator Mikulski. Let us go to the Hubble telescope. What 
is the current launch date for the Hubble servicing mission and 
does your fiscal year 2008 budget fully fund the servicing 
mission?
    Dr. Griffin. Well, the current date is September 2008 for 
the Hubble servicing mission. The fiscal year 2008 budget, of 
course, does not support that because the fiscal year 2008 
budget was prepared and submitted by me and determined by the 
OMB before we had ascertained that we could do the Hubble 
servicing mission. You were with me. We announced----
    Senator Mikulski. I remember it.
    Dr. Griffin [continuing]. That last October. We had been 
hoping for a spring 2008 launch and what we have is a September 
2008 launch, which is 4 months different, because of the 
necessity to first of all be certain that we could get the 
servicing mission hardware to the pad in time, and April or May 
would have been very dicey. Then second of all, we wanted to 
have a launch on need capability if there were a rescue 
mission.
    Senator Mikulski. Dr. Griffin, I know we have talked about 
this.
    Dr. Griffin. Right, okay. Sorry.
    Senator Mikulski. Safety of the astronauts. What I hear is 
that you have the financial resources----
    Dr. Griffin. So I need to find $40 million in the 
astrophysics budget and I will do that.
    Senator Mikulski. But it is a $40 million price tag which 
is not now currently in the 2008 framework; am I correct in 
that?
    Dr. Griffin. That is correct, ma'am.
    Senator Mikulski. So we will have to work together on that. 
And again, we are just identifying kind of a must-do list that 
we need to go down.

                        EARTH OBSERVING SENSORS

    Now, I found interesting your commentary on the science 
budget, now 32 percent, which carries us through, of course, 
2012. But at the same time, what we are concerned about is 
these years into the future, one of which is 40 percent--now 
let us go to Earth observing. Forty percent of the Earth 
observing sensors now in orbit are going to kind of end by the 
end of the decade unless they are replaced.
    As you look ahead, is there money now in this year's 
appropriation to make a down payment on replacing these 
sensors? Do you see replacing these sensors? Where do you see 
going with that?
    Dr. Griffin. You, of course, ask a very good question.
    Senator Mikulski. That is our bread and butter, am I 
correct, apart from new ideas and new National Academy of 
Sciences recommendations?
    Dr. Griffin. We certainly have to keep in place the Earth 
sensing, climate resource programs and the data. The continuity 
of the data is crucial and we have to keep that in place. Now, 
I need to take you back for just a moment to decisions made 
some years ago that all of this climate research capability 
would be put on the national polar-orbiting operational 
environment satellite system (NPOESS) program, which is a 
Department of Defense (DOD), NOAA, and NASA program. So NASA 
climate research dollars were diverted to NPOESS.
    Now, NPOESS breached the Nunn-McCurdy and so the climate 
research sensors will not be on that. So we have asked the 
National Academy of Sciences for a study; and we are doing 
ourselves a study to determine, for OSTP, how we are going to 
recover from the loss of climate information that was to be 
provided by NPOESS and how we are going to incorporate that 
into the Earth science program.
    We will have those studies by some time this spring. We 
will be factoring that into our planning for the 2009 request 
and beyond, because we have to adapt now to a changed set of 
circumstances that we did not anticipate.
    Senator Mikulski. Well, I know my time has expired, but 
with the indulgence of my ranking member, because he and I 
thought--we had NOAA in here last week, I think, and we were 
pretty robust in our questioning around the need for 
accountability on NPOESS. We are very disappointed at the 
enormity of the overrun, the fact that we were glad that the 
McCurdy stepped in, but now we asked Admiral Lautenbacher, what 
are you going to do about this and how are you going to 
implement the recommendations.
    But as you know, it was a three-headed thing. It was NOAA, 
NASA, and the Air Force. I do not think we would ever go for 
that kind of thing again. But where do you see yourselves 
coming in, not only with the loss of Earth science capability, 
but then also for the fiscal stewardship necessary for both 
your role that when NPOESS flies you are still going to be 
involved, ``you'' meaning NASA, is still going to be involved 
with NPOESS.
    So where do you see your fiscal stewardship? And then when 
this happens in May, we do want to talk to you about climate 
change, the climate crisis, because I think we all agree this 
is where the American people want us to be working as well.
    Can you help us out here?
    Dr. Griffin. Well, we absolutely intend to discuss with you 
the recommendations that come out of these two studies in 
connection with how we will continue our climate research.
    Senator Mikulski. That is how we are going to continue the 
research. But you know, it was not only NOAA that dropped the 
ball on the NPOESS. The Air Force played a big role in this and 
so did NASA.
    Dr. Griffin. NASA does not have money in the NPOESS 
program.
    Senator Mikulski. But you were all part of developing the 
NPOESS and they, as they look at some of the issues here, feel 
that it was also NASA that played a role, as did the Air Force, 
in part of these overruns. Are you with me?
    Dr. Griffin. I hear what you say and I understand you, but 
I do not think that NASA had any role in the NPOESS overruns 
and shortfalls.
    Senator Mikulski. Well, I do not want to use my time going 
down this path, but when we talked with Admiral Lautenbacher 
last week, and we talked with him both publicly and I had a 
conversation with him about it, because this is really a big 
ticket item, as you know, about what was our way forward. He 
seemed to also feel that there was a NASA role. So we need to 
be able to talk about this and talk about it, so it is not only 
about the climate change.
    But I am going to turn to Senator Shelby and Senator 
Alexander. I will come back with some more of this.

                     MANNED FLIGHT OF ORION VEHICLE

    Senator Shelby. Thank you, Madam Chairman.
    Dr. Griffin, you have indicated that unless there are 
additional funds provided in the next few fiscal years to NASA 
that the first manned flight of Orion will not be until 2015 
perhaps, instead of 2014 as called for in the recent NASA 
authorization bill. The additional funds beyond those already 
in the budget that would be required to have an operable 
replacement for the Shuttle I understand would be $350 million 
in 2009 and an additional $400 million in 2010.
    In response to the funding levels provided by NASA for 
2007, does NASA anticipate making any supplemental requests or 
sending a budget amendment to the subcommittee in the months 
ahead to try to make up this shortfall?
    Dr. Griffin. We are discussing within the administration 
what the way forward is, but I cannot say at this time. I 
simply do not know whether we would be making an amended 
request or change plans going forward.

                PRECURSOR PROGRAM FOR LUNAR EXPLORATION

    Senator Shelby. Senator Mikulski and a number of us that 
support NASA believe you need more money for what you are 
called upon to do. Lunar precursor missions. In 2005 the NASA 
authorization act directed NASA to institute a robust precursor 
program for lunar exploration. In December 2005, NASA awarded a 
follow-on mission, the RLEP as it was called then, to a team 
from the Marshall and Goddard Space Flight Centers, with 
Marshall as the lead.
    Last year before the subcommittee you stated that this 
mission would be done in a timely way as a precursor mission, 
but would not start until 2007. In your hearing with the House 
Appropriations Committee early this week, it was my 
understanding that you mentioned that all the information NASA 
will need for a return to the Moon can be obtained from orbit. 
This seems to indicate that the precursor mission will never 
happen. If I am wrong, can you correct me on that?
    Can you explain if the requirements have changed between 
2005 and today and align that position with the direction of 
NASA's authorization language for having a robust precursor 
program? In other words, what is the current status of this?
    Dr. Griffin. The information that we feel that we need--and 
this conclusion has been reached in discussion with our NASA 
advisory councils, science groups, as well as internally--the 
conclusions we have reached are that the information we need 
before putting people back on the Moon can be obtained with 
lunar reconnaissance orbiter. The surface science and 
technology that we would like to do is something we would like 
to do, but it is not essential.
    Because funding is very tight, we have a choice between 
doing lunar surface science and technology with robotic 
precursors early on. If we do that, we will delay the 
development of the Ares launch vehicle and the Orion crew 
vehicle by another 6 months. So if I undertake that work, I 
will delay Orion and Ares even further. That is work not yet 
started, and so when budgets are tight my normal first choice 
is to delay work not yet started rather than to cancel work, 
and my normal choice is to delay work which is nice to have but 
not essential, and that is what we will be doing here.

                  PROPULSION RESEARCH AND DEVELOPMENT

    Senator Shelby. In the area of propulsion, we talked about 
this before. The Vision for Space Exploration will require many 
new technologies and systems to be developed in order to 
maximize our investment on returning to the Moon. One of these 
areas will require ongoing research and development in this 
area of propulsion. Marshall Space Flight Center has expertise 
in this area and has continued working on propulsion systems 
from the time of the last missions to the Moon to the present.
    As the work continues on the research and development on 
Vision-related vehicles and systems, what do you anticipate 
will be the need for propulsion research and development this 
year and in the future?
    Dr. Griffin. I do not need propulsion research to get back 
to the Moon. I need propulsion systems development, if you 
will, and that is going on at the Marshall Space Flight Center 
and through its contractors, and they are doing, frankly, a 
very good job. I am quite pleased with them. They will be busy 
with the redevelopment of the Nation's space propulsion 
capabilities for an upper stage and rocket capabilities for the 
foreseeable future.
    So Marshall is fully occupied helping us first replace the 
Shuttle and then after that return to the Moon. I would like to 
say, believe me, I would very much like to be doing advanced 
research in propulsion. But as with other things in the budget, 
there is a difference between must have and nice to have, and 
right now what I must have is working propulsion systems, and 
what would be nice to have is advanced propulsion research.

   AGING NATIONAL AERONAUTICS AND SPACE ADMINISTRATION INFRASTRUCTURE

    Senator Shelby. Dr. Griffin, a lot of the NASA facilities 
have aged and deteriorated, as you well know. A lot of us 
believe there is significant need for infrastructure. Do you 
have any plan for that? What can we do to help you? I know we 
are the money Committee to appropriate money. We have those 
challenges at Marshall. You have them at Goddard, you have them 
at Kennedy Center, you have them in Florida.
    Dr. Griffin. Sure. Sir, most of the NASA infrastructure, as 
you know, is 40 some years old and more. Even at that, it is 
not as old as many other Government facilities, but that is as 
it is. We are working on an agency-wide facilities plan right 
now. It will be done shortly. We are working with the Office of 
Management and Budget to finalize that, and it will cover the 
detailed data for the fiscal year 2008 construction of 
facilities, including repair, rehabilitation, renovation, 
replacement on existing systems, as well as any new things that 
we need.
    It will describe about a little more than a $6 million 
strategic initiative to address our facilities repairs and 
upgrades that are needed. Now, with regard to returning to the 
Moon, we are going to make every effort to use existing 
facilities. We would only propose building a new facility if 
something that the U.S. Government already owns just does not 
make the grade. But we will discuss that, the strategic plan, 
with you just as soon as we have it.
    Senator Shelby. Thank you very much.
    Senator Mikulski. Senator Alexander.

                           EDUCATION PROGRAM

    Senator Alexander. Thank you, Madam Chairman.
    Mr. Griffin, I want to ask you about a $153 million item in 
the budget that is labeled ``Education.'' I see that NASA's 
education themes are: one, to contribute to the development of 
science, technology, engineering, and math workforce in 
disciplines needed to achieve NASA's strategic goals; and two, 
to attract students and retain them in those disciplines. So it 
is teachers, workers, students--and students, I guess is what 
we are talking about.
    Two years ago a group of us, including the chairman of this 
subcommittee, asked the National Academy of Sciences and the 
National Academy of Engineering, of which you are a member----
    Dr. Griffin. Yes, sir.
    Senator Alexander [continuing]. To tell us what are the top 
things we need to do in priority order to keep our brainpower 
advantage in this country. They assembled a distinguished group 
and gave us 20 specific items in priority order. And items A-1 
and A-2 were the same things as your themes. In other words, 
one, is annually recruit 10,000 science and math teachers by 
awarding scholarships, et cetera; and two, is strengthening the 
skills of 250,000 existing teachers through training and 
education programs. So what I want to ask you is, in order to 
keep our jobs in this country, keep growing them, if we wanted 
quickly to recruit more math teachers and strengthen the skills 
of existing math teachers and inspire students in math and 
science, your $150 million is already at work toward that 
objective. How effective are you at that? And specifically, how 
many teachers, how many students, do you touch each year? And 
do you have any measures of how much they learn or what 
progress, how effective the programs are toward these goals? 
And have you invited your Academy of Engineering or scientists 
or other outside groups to look at this $150 million and say, 
in light of these goals, which are now being incorporated into 
legislation that has been introduced and is likely to pass here 
by big bipartisan numbers, are we getting the biggest bang for 
our buck on this $150 million in terms of new math and science 
teachers and outstanding teachers, especially with summer 
institutes and academies, which were highly recommended here as 
some of the most effective programs for training math and 
science teachers and aspiring students?
    Dr. Griffin. I do not know that we are. I have a new 
Assistant Administrator for Education. She has taken on the 
task of trying to link our spending to measurable goals and 
outcomes. When I rejoined NASA as Administrator, I too was 
unhappy with the indefinite nature of our education program. We 
are spending, as you see there, in round numbers around $150 
million or so every year on direct education, and we are 
spending another very substantial sum, in the low hundreds of 
millions, on education and public outreach as a part of our 
normal missions. So from all sources, NASA is spending 
literally hundreds of millions on education, and it would be 
nice to have it strategically oriented. I do not know that it 
is right now, but we are working on it and I would be more than 
pleased to provide an answer to you for the record on exactly 
what we are doing or a briefing to you or your staff.
    [The information follows:]
        Science, Technology, Engineering and Mathematics (STEM)
    NASA is continually looking for ways to support science, 
technology, engineering and mathematics (STEM) education to compete 
effectively for the imaginations and career ambitions of America's 
young people. NASA also provides teachers with supplemental curricular 
materials for the learning environment in communities.
    NASA has developed a number of innovative programs that use NASA's 
unique content, people and facilities to support educators in science, 
technology, engineering, and mathematics fields, and to inspire the 
next generation of explorers and innovators through the Vision for 
Space Exploration. Specific examples include:
Attracting students to the teaching profession
    The NASA Educator Astronaut project uses the visibility and 
educational opportunities created by the activities of the Educator 
Astronauts to inspire greater K-12 STEM achievement, promote STEM 
careers, and elevate public esteem for the teaching profession. In 
selecting our Educator Astronauts, we identified hundreds of our 
country's top educators. We have captured their energy through the 
Network of Educator Astronaut Teachers (NEAT). Approximately 180 NEAT 
members are now in communities all across America conducting workshops 
(three annually) reaching about 90 educators per session. These efforts 
result in strengthening STEM skills of approximately 10,000 teachers 
annually. Additionally, professional development training engaging 
educators, their schools and communities in NASA education activities 
and informing them of NASA resources has taken place in 280 NASA 
Explorer Schools (NES) 17 Science, Engineering, Mathematics, Aerospace 
Academies (SEMAA), and 31 Aerospace Education Laboratories (AEL).
Providing pre- and in-service teacher training
    NES provide intensive teacher training, the Aerospace Education 
Support Project (AESP) provides on site professional development to 
teachers in classrooms across the country. NES assist middle schools 
with improving teaching and learning in STEM education through 
significant structural (professional development, stipends, grants) and 
curricular support based on NASA resources. In 2006, 5,339 teachers 
received intensive training as part of the NES project. Additionally 
the AESP conducted sessions across the Nation, reaching 13,938 
educators.
  --Research Academy provides leading-edge research opportunities for 
        faculty and students from Minority Institutions (MI) that 
        compliment NASA's research programs and make original 
        contributions to NASA in astrobiology, biotechnology, 
        information technology, and nanotechnology. Faculty and 
        students from MI collaborate with the scientists at NASA's Ames 
        Research Center, industry, academia and nonprofit organizations 
        on research that helps prepare the next generation of explorers 
        for NASA missions.
  --In addition to in-service workshops based on our missions, NASA is 
        committed to the pre-service training of our future educators. 
        Through the National Pre-Service Teacher Conference, Pre-
        Service Teacher Institutes and Online Professional Development, 
        NASA recruits STEM teachers to develop the confidence and 
        skills to effectively teach mathematics and science using 
        cutting-edge technology and educational materials. Such efforts 
        have led to 200 STEM-enhanced teachers instructing an average 
        of 25 students per classroom times 3 years, impacting a 
        projected total of 15,000 students.
  --NASA's Digital Learning Network (DLN) fosters the effective use of 
        interactive instructional technologies through the delivery of 
        NASA educational content for the benefit of its students and 
        educators. It also contributes to the professional development 
        of internal and external educators through the delivery of 
        face-to-face and distance learning-based events. Over 74,000 
        students, teachers and other participants were engaged in a DLN 
        event last year.
Developing and distributing curricular support materials
    Curriculum Improvement Partnership Award, a three-year 
undergraduate curriculum improvement program for minority institutions 
(MI), including Historically Black Colleges and Universities, Hispanic 
Serving Institutions, Tribal Colleges and Universities, and other MI, 
emphasizes improvements that are directly related to the NASA mission 
by infusing innovative learning experiences in STEM into the 
curriculum. NASA's Educator Resource Centers (ERC) conducted educator 
Resource Center Network 362 workshops in fiscal year 2006, helping 
23,819 teachers learn about and use NASA's educational resources. 
Personnel at ERCs located throughout the United States work with 
teachers to find out what they need and to share NASA's expertise. The 
ERCs provide educators with demonstrations of educational technologies 
such as NASA educational Web sites and NASA Television. ERCs provide 
in-service and pre-service training utilizing NASA instructional 
products. Educators also have the opportunity to preview, copy and 
receive NASA instructional products.
    Through an innovative partnership, NASA is collaborating with 
OfficeMax to provide educators with a convenient way to access NASA 
materials in the most economical, productive and efficient way. If 
educators require a document or material that is large quantity (number 
of pages), and doesn't have the resources to print them, OfficeMax will 
print materials and make them available at any of their nearly 1,000 
stores across the country, including Puerto Rico and the Virgin 
Islands.
Supporting informal learning
    The Museum Alliance provides near real-time access to NASA 
information from missions such as Cassini, Hubble and Mars, as well as 
Earth science resources, for use in museums and science centers across 
the country.
    In collaboration with the American Museum of Natural History, 
dozens of activities and curricular support materials and lessons were 
adapted for use by the after school community.
    Other examples of the unique innovative projects that NASA makes 
available to support students across our Nation and to inspire more 
students to pursue higher levels of study in STEM courses include:
  --The Science Engineering Mathematics and Aerospace Academy Program 
        (SEMAA) reaches K-12 minority students that are traditionally 
        underrepresented in careers involving STEM. Students meet 
        during school, after school or on Saturday mornings and during 
        the summer to engage in hands-on, interactive learning sessions 
        that are specifically designed for each grade level.
      Between the International Space Station, the space shuttle, 
        sounding rockets and high altitude balloons, NASA's Education 
        Flight Projects provide hands-on experiences to inspire and 
        motivate students to pursue studies and careers in STEM through 
        participation in NASA research applications. NASA is using its 
        unique assets like the C-9 to allow students to study 
        microgravity; we are launching student experiments more than 25 
        miles above the Earth on sounding rockets; and our astronauts 
        make phone calls from 240 miles above Earth's atmosphere to 
        students to involve them in current research aboard the 
        International Space Station. All these opportunities take 
        advantage of our flight hardware projects provide real, hands-
        on experiences to inspire the minds, imaginations, and career 
        ambitions of America's young people.
  --Teacher training for Worlds Beyond Our Own captures the excitement 
        and discovery surrounding planetary exploration. NASA and the 
        Johns Hopkins Applied Physics Laboratory developed workshops 
        and materials to assist educators in capturing the excitement 
        surrounding NASA's New Horizons mission to Pluto that launched 
        in January 2006. New Horizons is the fastest spacecraft ever 
        launched from Earth, on board one of America's most powerful 
        rockets, and will be traveling the farthest distance of any 
        NASA spacecraft to begin its primary mission. Students will 
        grow up with this project. Today's elementary school students 
        will be in college when this spacecraft encounters Pluto.
  --Museums and Science Centers are developing activities and materials 
        to inspire, educate, and engage students, educators and the 
        general public. They are also hosting professional development 
        opportunities for formal and informal education professionals 
        across the Nation. For example, in 2005 NASA and the Children's 
        Museum of History, Natural History, Science and Technology in 
        Utica, NY unveiled two new exhibits at the museum. The exhibits 
        ``Why We Explore'' and ``Space Station Imagination'' provided 
        an overview of the history and future of space exploration. 
        Astronaut Ed Lu, a veteran Space Station astronaut, who spent 
        six months aboard the International Space Station, hosted the 
        unveiling.
  --NASA's Great Moonbuggy Competition allows high school and college 
        students' to race into the future and cross the surface of the 
        moon without leaving the Earth. Teams from the United States 
        and Puerto Rico design human-powered vehicles to compete in 
        NASA's annual Great Moonbuggy Race. The race was inspired by 
        the lunar rover vehicles astronauts drove on the moon during 
        three Apollo missions. This year's event, opened to the media 
        and public, was held April 13-14 at the U.S. Space & Rocket 
        Center in Huntsville, Alabama.
    In fiscal year 2005, through a variety of venues (distance 
learning, videoconferencing, events, competitions, face-to-face, Space 
Shuttle and ISS downlinks, workshops, and other activities NASA has 
reached more than 2.9 million students, (776,000 K-12; 50,000 higher 
education; 2,151,380 distance learning students) and 855,000 teachers. 
(Please note: the number of teachers represents not a number of the 
individuals that participated but a number of participation 
opportunities that were taken, many of which were taken multiple times 
by the same individuals.)
    Educators who participated in NASA workshops and events provided 
feedback via the NASA Education Evaluation Information System (NEEIS) 
regarding the effectiveness and relevance of our efforts. With a 5.0 
Liken scale in which ``5'' is the highest value, the average of the 
teacher participant ratings of NASA's workshops and resources was 4.67.
    NASA's resources (teacher training programs, supplemental 
curricular materials, etc.) are aligned to national standards and 
complement other agencies efforts. Interagency forums, e.g. the 
National Science and Technology Council enable all STEM education 
focused agencies and departments to share information and best 
practices to promote complementary activities.
    Additionally, NASA uses objective and verifiable performance 
metrics, regular management insight and review processes, and defined 
tools to assess its performance at all levels--portfolio, outcome, and 
the individual program/project/product/activity.
    The Agency is working with other agencies, e.g., National Science 
Foundation to examine their evaluation techniques to determine 
applicability and best practices for assessing NASA's education 
portfolio, strategic outcomes, and projects.
    In fiscal year 2006, the National Research Council (NRC) Board on 
Science Education began work under a contract with NASA to conduct an 
evaluation of NASA's precollege education program. An expert panel was 
convened and the first committee meeting was held Nov. 15-17, 2006. A 
second meeting held on January 18-19, 2007. Three additional committee 
meetings will be held prior to the submission of the NRC's report, 
scheduled for November 2007. The NRC does not release preliminary 
results prior to submission of their report.
    In addition to the NRC evaluation, other independent assessments, 
evaluations and program reviews of projects such as NES, AESP, 
EarthKam, and SEMAA are conducted annually by Paragon Tec Inc. (NES), 
Western Michigan University (AESP), Education Development Center for 
Child and Technology (EarthKam), and Benson Penick and Associates 
(SEMAA).

    Senator Alexander. Well, no, I would be--you can provide it 
to me, because I am very interested in it and would like to 
work with you. My son went to the space camp in Huntsville and 
that's an attractive way to inspire students. But if I may 
suggest, one outside group that may be useful to your assistant 
and to you as you measure the $150 million might be the 
Augustine Group in the National Academies, because they spent a 
summer looking over a great many programs, looking at their 
effectiveness. That would be one source of input.
    For example, the legislation that we have would increase 
the number of summer institutes at national labs. Well, I can 
think of no more inspiring place for math and science teachers 
in Tennessee to go for a 2-week session than an academy in 
Huntsville, to learn new techniques for teaching math and 
science and to inspire them to do a better job.
    You have so many degrees that you have enough degrees for 
the whole room here, so I know I am preaching to the choir. But 
just as an example, we are talking about very measurable 
numbers here. Governor Hunt of North Carolina, former Governor, 
told us that the University of North Carolina College of 
Education graduated three physics teachers last year for the 
entire State of North Carolina. I am sure the number in 
Tennessee is not much more. But just in our own region with 
that one activity in Huntsville, we could probably quadruple or 
double or even by a factor of more the number of teachers 
through summer institutes, academies, a variety of ways.
    So I would look forward to working with you on that and 
following it over time, and I am delighted that you are there 
and that it is a priority of yours.
    Dr. Griffin. I would be interested in working with you on 
it and I am certain that if legislation is passed increasing 
the number of summer academies and institutes that we would be 
happy to be part of that. We would be thrilled.

                     MATH AND SCIENCE INSTITUTIONS

    Senator Alexander. Madam Chairman, and I am also suggesting 
that since they have recommended this as the single most 
important thing we could do to keep our competitive edge, ahead 
of research, ahead of the R&D tax credit, ahead of everything 
else, we might take some of that $150 million you have now got 
and have some summer institutes for math and science teachers 
and students.
    Dr. Griffin. Well, much of the money that we are spending 
today is set aside for member preferences on how the education 
dollars are to be spent, and if it could be spent more 
strategically I would be, for one, I would be much in support 
of that.
    Senator Mikulski. Dr. Griffin, now you know why Senator 
Shelby and I were so excited that Senator Alexander joined the 
subcommittee. We worked with he and Senator Domenici and 
Senator Bingaman last year to literally put into a legislative 
framework the rising above the gathering storm, and he came on 
this particular subcommittee because of his passion really to 
implement the triad of increased research, increased 
opportunities in education to get people excited about science, 
and number three, a more innovation-friendly government.
    Who is your new assistant for education?
    Dr. Griffin. Her name escapes me right now.
    Senator Mikulski. Mary, do you want to?
    Dr. Griffin. Oh, thanks. Dr. Joyce Winterton. I am sorry. 
She just recently came on board and I met her only once.
    Senator Mikulski. No, I know you've got a lot on your mind. 
This is like sitting for your oral exams for your doctorate. We 
go from one topic--no, we understand.
    Dr. Griffin. No, that was easy. This is much tougher.
    Senator Mikulski. What we would like to suggest is that the 
new Administrator meet with Senator Alexander, because you are 
right, in previous years education has been gushy and where 
there is a vacuum members step in. So now I think we would like 
to make wise and prudent use of that $150 million and we can 
see the benefits. Certainly the NASA relationship with the 
Maryland Science Center has been a cornucopia of running 
opportunities both for teachers and for students.
    But we would like to really make good use of this because, 
again, NASA is where it is at. It is--what I said to the 
President about being in the innovation-competition agenda, 
competitiveness agenda. It is NASA through its technology, 
through Hubble, to its space exploration program, that really 
excites people about science. And we have got all these young 
little geniuses out there who want to participate in October 
Sky, while we, of course, do our appropriations.

                        SPACE SHUTTLE RETIREMENT

    So moving on, though, to like some nuts and bolts again, 
Shuttle retirement. What I am concerned about is what happens 
if the Space Station is not finished by 2010 and you are ready 
to retire the Shuttle? Do we anticipate that the Shuttle really 
will be done by--excuse me, the Space Station, that the Space 
Station will be done by 2010? And do you really believe that it 
will, but do you have a contingency plan? What is the 
consequences of the contingency plan?
    Dr. Griffin. We have dealt with that in a couple of ways. 
First of all, I do believe that the assembly schedule 
accommodates ample margin to finish the assembly of the Space 
Station with the Space Shuttle by 2010. It was planned that 
way. When I came back to NASA, we did not have a plan that 
accommodated a reasonable schedule reserve to finish the Space 
Station by 2010, nor did we have the budget for it. So we 
tightened our belt on the human space flight side of the house 
and we deferred, as many have regretted and as I regret, we 
deferred some of the utilization of the Space Station in the 
next few years in order to focus on assembling it.
    So our average flight rate over the years, including time 
out for two losses due to accidents, has been 4\1/2\ flights 
per year. We are on that pace now again. We are doing well, and 
if we continue that pace we will finish with ample margin. So I 
do believe we can do that.
    Now, the consequences----
    Senator Mikulski. Do you envision any scenario that would 
keep the Shuttle going after 2010?
    Dr. Griffin. I do not. In fact, at some point years ahead 
of your last flight you have to buy your last tank, your last 
solid rocket boosters. We've done that. So we do not envision a 
scenario in which we would continue to fly past 2010. Now, the 
last couple of flights have been arranged so that they are the 
least crucial flights, and so if it were necessary to drop a 
flight or two we would still have the assembly complete. Some 
of our logistics would not be delivered and we would have to 
find some other means of commercial transport to put those up. 
In fact, that is what we plan to rely on between 2010 and when 
the crew exploration vehicle (CEV) comes along, is commercial 
transportation to the Space Station to deliver our supplies and 
other cargo.

             ORION CREW RETURN VEHICLE/ARES LAUNCH VEHICLE

    Senator Mikulski. We could have a robust conversation just 
on that. But I would like to give you the opportunity, because 
I know Senator Shelby as our other colleagues are very keenly 
interested in, of course, the Orion crew return vehicle and the 
Ares launch vehicle. That is the bread and butter. I mean, that 
is the--without that, space exploration will really just 
sputter.
    The Orion of course, the safety of our astronauts, the crew 
return vehicle, and of course the launch vehicle. In your fall 
testimony, which was the part that I was reading, you talk 
about how, based on everything I know, due to the cumulative 
effect of reductions in the exploration system to pay for the 
Space Shuttle return, previously underestimated costs to fly 
the Shuttle until 2010, and the reduction in fiscal year 2007, 
you were concerned about, number one, the schedule that you now 
had, and number two, you also comment that you are not sure 
about what will be the workforce implications of all of this.
    What I would like to do today with Senator Shelby and I 
here, do you want to elaborate on that, so we just kind of get 
it all out into the air? Right now we have just identified 
Hubble costs $40 million. That is a chunk of money. Let us 
really talk about what it is going to take and what you would 
like to see in order that we meet--we understand, we do want 
Orion. We do want Ares, and we want it in as well-paced a way 
as you would, and I think the mission calls for.
    So do you want to elaborate on your testimony, because I 
think this is the nuts and bolts of what colleagues are asking 
and what we are asking. So tell us how you see this and for you 
to elaborate on your testimony, and particularly also the work 
force implications, because some of our colleagues are 
apprehensive.
    Dr. Griffin. Yes, Madam Chairman. Would you like me to sort 
of walk you through how we got where we got?
    Senator Mikulski. No, we know how we got where we are.
    Dr. Griffin. You know how we got there, okay. So you want 
to know what we need to go forward.
    Senator Mikulski. Yes. We know how--it is kind of that 
same, we are where we are. So we know where we got, but we have 
got to get going. So let us talk about the got to get going.
    Dr. Griffin. Yes, Madam Chairman. I just wanted to make 
sure I understood what you wanted me to talk about. Accepting 
the intent of the Congress on the fiscal year 2007 continuing 
resolution, Senator Nelson and Senator Hutchison asked me what 
it would take to get back into 2014 with the CEV and the Ares 
and Orion. I said, after we studied it carefully, to replace 
the money that was not appropriated in 2007 would require $350 
million in fiscal year 2009 and $400 million in fiscal year 
2010, as close as we can estimate it. That would get us back to 
September 2014. I was also asked what it would take to get back 
into 2013 and, considering that again as carefully as we can, 
we believe that it is about $100 million a month. So that 
should just be the way that you should think about it. Every 
month that you want to pull the schedule in is $100 million.
    The best we could do at this point would be to bring it 
back to June 2013. So June 2013 is where we are on a technical 
schedule.
    Senator Mikulski. Technical. But as it stands now, based on 
the 2014, knowing earlier is always nice to hear, but we would 
be concerned about two things. Number one, what now as we look 
at 2008 in order to meet responsibilities, meet our 
responsibilities in 2008, and also what you need to do in terms 
of the fiscal mechanisms, not to be sure that we do not get 
into the overrun problem.
    Dr. Griffin. Of course, now----
    Senator Mikulski. What do you need in 2008 to, say, meet a 
2014?
    Dr. Griffin. I do not need anything additional in 2008.
    Senator Mikulski. But for us to stay the course?
    Dr. Griffin. For us to stay the course. If you wished to 
pull the schedule in and stay the course and be in 2014, we 
would need money in 2009 and 2010. Of course, you know better 
than anyone that fiscal year 2009 preparation starts next 
month. So fiscal year 2009 is already upon us. But I do not 
need additional funds in fiscal year 2008. But I would need to 
know that funding would be coming along in fiscal years 2009 
and 2010.
    Senator Mikulski. But your point, though, is that in 2008, 
that if there is any shrinkage in 2008--and, of course, we are 
looking forward to what our allocation is going to be. This is 
why we are looking--you know, we are so glad the budget is 
going to be on the floor, that we know what our allocation is, 
because we presume that some time in May we will need 
additional conversations. We will know what our allocation is, 
we will know the direction.
    But to be clear, if we stay the course in 2008 as 
recommended here, you will be moving while you are looking at 
2009. And that is also if something unforeseen does not happen.
    Dr. Griffin. That is exactly correct, Senator. If I get the 
President's budget in 2008 and if the funding I mentioned in 
2009 and 2010 were to be supplied, if you chose to do that, 
then we would be back on track. I will say for the record, our 
technical planning on these systems is very conservative. We 
are budgeting with new levels of conservatism. I have spoken of 
65 percent confidence level budgeting. Paul has heard me and 
Art has heard me on this. So I strongly believe, that we can 
avoid future technical surprises in this. We are not developing 
new technology here. We are striving to restore lost 
capability. So this is not the time to develop new technology.

               INDEPENDENT PROGRAM ANALYSIS ORGANIZATION

    Senator Mikulski. Well, first of all, I know that many are 
talking about even if we could accelerate it another year. I 
want to be sure that there are mechanisms in place to make sure 
that Orion and Ares are properly managed. And I know you share 
that.
    Do you have an independent oversight mechanism to verify 
cost, design, and technical feasibility?
    Dr. Griffin. Yes, we do. We have an entire independent 
program analysis organization that, in fact, does just such 
cost analyses, that is independent of the programs.
    Senator Mikulski. I am sorry; who does that?
    Dr. Griffin. Again, it is our independent program analysis 
organization.
    Senator Mikulski. So you have an internal red team?
    Dr. Griffin. Yes, Madam Chair.
    Senator Mikulski. Is that kind of that in a nutshell?
    Dr. Griffin. We do. They are located at Langley or they are 
headquartered at Langley. They are independent of the programs 
and their estimates in fact have been quite reliable. It was 
they who brought to me the correct information regarding the 
underfunding of the James Webb Space Telescope a couple of 
years ago. So I have found them to be very good.
    Senator Mikulski. We just needed to know what it was.
    I just--I do not know if Senator Shelby has more questions, 
but when Shelby--when Senator Shelby moved the bill last year, 
I think, Senator, you had $3.7 billion in there for this, which 
of course is very close to the President's budget. Had we been 
able to move our bill, I think we would be in good shape.
    I know with the continuing resolution--and it has given 
heartburn to many of us, even the idea that we had to do one--
there was $400 million, so it was not a total loss. But it was 
enough of a loss for you to lose time, but you do not want to 
lose ground; is this right? And if we get back to where we are, 
I think we will have a way forward.
    Dr. Griffin. That is correct, Madam Chairman. I would again 
emphasize we will soon be making decisions with our contractor 
based on what money we can expect when. So if it is your 
intention----
    Senator Mikulski. You know, when you talk about 2009 and 
2010, I do not dispute this. I am glad to hear. Also there is 
the red teaming, which means--but we are not the only ones that 
need to hear this. And I know you are starting next month. This 
is why I would like for us to be in the room and say, we have 
got to talk about a couple of years here, how we can retire the 
Shuttle with honor and say goodbye, not be sitting on the 
launch pad for a prolonged period of time, but do it in a well-
paced way, as well as to meet important scientific objectives 
that have been identified by both your team and the national 
academies.

                  AMERICAN COMPETITIVENESS INITIATIVE

    Senator Shelby. Thank you. Madam Chairman, I think we do 
need some type of summit with Dr. Griffin and others where we 
can just talk about what we really need, where you really want 
to go, and so forth, and see how we can help.
    Dr. Griffin, ACI. I was surprised to see that NASA was not 
included as part of the American competitiveness initiative, 
ACI. The goals for the education component of NASA's budget are 
to strengthen the Nation's future workforce, attract and retain 
students in science and engineering, and to engage Americans in 
NASA's mission. Coupled with the high public visibility and 
recognition that you enjoy, it seems that NASA would be a 
natural fit for such an initiative.
    It is troubling why NASA was not included in this 
initiative. It seems like it is a pretty good fit.
    Dr. Griffin. Well, yes, sir. In fact, much of what we do 
fits very naturally within the goals of the ACI. There may be 
some semantics involved here, but I think in a way that is a 
reason why NASA was not specifically included. We are already 
doing many of those things.
    The ACI was also intended to provide additional budget for 
agencies which had not been receiving it, and from the 
administration's point of view NASA is already above the 
average level for domestic non-defense discretionary agencies.
    Senator Shelby. You have got a lot of brainpower, I think, 
that we could use.
    Dr. Griffin. Well, I hope we do.
    Senator Mikulski. I would agree.
    Dr. Griffin. Well, we support your view that we at NASA do 
many things that are closely related to the goals of the ACI 
and we intend to keep doing those things.

                           CHINESE ASAT TEST

    Senator Shelby. China. I know that last summer you were in 
China to talk about their space program and so forth.
    Dr. Griffin. Yes, sir.
    Senator Shelby. As we are all aware, China recently 
conducted a test that destroyed a weather satellite in an orbit 
about 500 miles above the Earth. This test had to have created 
some space debris that eventually will fall or could fall to 
the Earth. But it would first have to pass through space 
occupied by the International Space Station and other valuable 
NASA assets. That is what I have been told.
    I do not want you to touch on any classified information 
here, but what risk to NASA's assets was created by this test 
and could you relate that here, or would you rather defer that?
    Dr. Griffin. No, I can discuss that here, Senator. For the 
first few weeks after the Chinese ASAT test, the risk to the 
Space Station approximately doubled. Now, I would state 
correctly for the record that the average daily risk to the 
Space Shuttle from orbital debris is about 1 in 100,000. So the 
risk doubled from about 1 in 100,000 to 1 in 50,000.
    After a few weeks, the debris had spread out and retreated 
into what the analysts refer to as the background. So after a 
few weeks that debris posed no measurable additional risk over 
the existing background that was already there. Nonetheless, of 
course, we deplore such tests because we now understand in a 
way that we did not some decades ago how dangerous that debris 
can be, and in fact China is part of international coordinating 
bodies whose goal is to mitigate such debris. So we do regret 
that test, but at this point it does not pose an additional 
threat to any space assets that we have.

                  STATUS OF THE EXPLORATION ACTIVITIES

    Senator Shelby. Dr. Griffin, for the record, could you give 
us a status of the exploration activities such as the 
Constellation program are progressing, would you specifically 
focus on crew exploration vehicle, the crew launch vehicle, and 
the launch operation aspects of the program? Could you do that?
    Dr. Griffin. Yes, Senator. The crew exploration vehicle--
when I sat here with you a year ago we were in the middle of 
source selection. We said that we would select a winning 
contractor by Labor Day of that year, and we did. That winning 
contractor is Lockheed. We have spent the last few months 
working with them to scrub the design and definitize the 
requirements. That has gone quite well. They are on track and 
they are on target.
    We with Senator Mikulski already discussed the impact of 
various delays, including the need to find additional money for 
the Space Shuttle last year and the continuing resolution this 
year. The accumulated effect of delays is to put us into 2015, 
which none of us want to be in, and both of you have expressed 
your desire to help with that and I appreciate it.
    But the technical work on the CEV is on target. The Ares 
launch vehicle, which, as I think you know, is being developed 
under the leadership of a team at the Marshall Space Flight 
Center, is equally on target. They are doing just a great job. 
They have released the RFP, the request for proposals. Industry 
is now bidding on the upper stage development work for that 
vehicle. The first stage uses an existing development, the 
Shuttle solid rocket booster, which the project office for that 
exists at Marshall Space Flight Center. So we will be combining 
a second stage with an old first stage, and that will be the 
new crew vehicle.
    The instrument unit for that will be procured in an RFP 
this October. So by the time the new fiscal year starts, we 
will have all the elements of Shuttle replacement under 
contract and in work. I am very pleased. We have teams at 
Marshall Space Flight Center and Johnson Space Center on that. 
I am very pleased.
    Launch pad work has already started on Complex 39B to 
transition that from a Shuttle pad to a new Orion and Ares pad. 
Now, Senator Mikulski, as you and I have discussed, we will 
preserve the launch on need capability during the Hubble Space 
Telescope servicing mission. So we will not make modifications 
to Complex 39B which would interfere with the Shuttle launch, 
but we have started those modifications in non-interfering 
ways.
    The team is excited. They are energized. This is affecting 
our educational posture because I spent 13 years as an adjunct 
professor. If I ever again have a life to call my own, I will 
go back to doing it. But my academic friends are telling me 
that their college students are excited and they are energized 
because they see a space program being reborn out there that 
they can join when they graduate from college, and they look 
ahead and they say, well, when I am 45 we will be going to 
Mars, and that is true. If we keep going with what we are 
doing, that is true. So work is going very well.
    Senator Shelby. Dr. Griffin, I do not believe you will be 
an adjunct professor unless you want to by choice. You will be 
a chaired professor somewhere.
    Madam Chairman, thank you.

          NATIONAL ACADEMY OF SCIENCES REPORT ON EARTH SCIENCE

    Senator Mikulski. Thank you, Mister--thank you, Senator 
Shelby.
    I just have one last question before we go. I know there 
are votes. I want those college kids when they are 45 knowing 
that we are on Mars, but I do not want them sitting at a kayak 
at Goddard because the bay has risen that far because of global 
warming.
    Which takes us to the National Academy of Sciences report 
on Earth science. Dr. Griffin, as you know, they have 
recommended a robust agenda of 17 different projects to study 
climate and atmospheric and oceans issues along with NOAA, to 
really also focus on those things that would have societal 
benefit.
    Do you want to tell us your reaction to this and how you 
would see--I know it is not in 2008, but how you would see 
incorporating this? And also, one of the things it calls for is 
a memorandum of agreement with NOAA to really maximize and 
leverage the respective work that both agencies are doing. Do 
you want to comment on that?
    Dr. Griffin. Yes, Madam Chairman, I would like to. I think 
the NASA-NOAA relationship is as good or better than it has 
ever been. Admiral Lautenbacher and I and our staffs talk 
frequently. We, as I said in an answer to one of your earlier 
questions, we recognize the need to replan our Earth science 
and observation and climatology work together, given the 
restructuring of NPOESS, and we will be doing that over this 
summer and we will be keeping you and your staffs informed as 
to how that is going.
    We have a National Research Council study which is due to 
us to help with this issue, as well as a study that we are 
preparing for OSTP. We will factor in the results of the new 
decadal, which I would remind you, we asked for that decadal. 
So we now have their priorities for the work which should be 
done within Earth science, and in fact we used the midterm 
report on that to increase money to the global precipitation 
measurement mission, the GPM, which we will be doing in 
conjunction with the Japanese. So we are paying attention.
    Senator Mikulski. I want to be very clear that the 
recommendations of the National Academy on Earth science for 
the climate crisis does not mean in any way to imply that you, 
meaning NASA and the Earth sciences have not already been 
looking at it.
    Dr. Griffin. Right.
    Senator Mikulski. This is the look ahead. That is why they 
call it the decadal. That is like we are in the decathlon.
    Dr. Griffin. So we will be restructuring our Earth science 
portfolio, or we will be making certain that our Earth sciences 
portfolio over the budget planning horizon starting with the 
fiscal year 2009 budget does reflect the input of the decadal, 
and we will share that with you.
    Senator Mikulski. Well, I am really excited to hear about 
that and, as both Senator Shelby and I have said, we have got a 
long road ahead. I think we are very clear that in 2008--
ordinarily phrases like ``stay the course'' do not usually mean 
something, but we understand how--what we need to be doing in 
2008. But we also want to look ahead to the longer issue, the 
NASA trend lines, as well as ensuring that we do have a 
reliable space transportation system as promptly as the Nation 
can afford to do it, as well as keeping other important 
projects.
    I think we have really gone through quite a bit of our 
questions. Senator Shelby, do you have a last one?

                 RANKING MEMBER SHELBY CLOSING REMARKS

    Senator Shelby. I just have one brief comment since we have 
Dr. Griffin here again.
    Dr. Griffin, we want to work with you, both of us. I work 
now as the ranking Republican, former chairman. Senator 
Mikulski was the former ranking Democrat, now chairman. But I 
do not believe that NASA has two bigger supporters than the two 
of us here on this subcommittee. We are going to continue to 
work with you to make NASA what it wants to be.
    Dr. Griffin. Thank you, Senator. I know that you have been 
my biggest supporters and I very much appreciate it.

                          SUBCOMMITTEE RECESS

    Senator Mikulski. This subcommittee is recessed. We will 
return on April 12, when we will take testimony from the 
Attorney General.
    [Whereupon, at 3:18 p.m., Thursday, March 15, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
